                            2008
          Fiscal Year 2008 United States Army Annual Financial Statement
                               U.S. Army Corps of Engineers - Civil Works
Financing America’s Army: The Strength of the Nation
*Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army. (www.army.mil)
                                                 Contents
                                                 Message from the Assistant Secretary of the
                                                 Army (Civil Works)                                iii

                                                 Management’s Discussion & Analysis                 1

                                                 Civil Works Fund Fund – Principal Financial
                                                 Statements, Notes and Supplementary Information   35




                                                                                                     Fiscal Year 2008 United States Army Annual Civil Works Financial Statement



Watsadler Campground on Hartwell Lake
is run by the Army Corps of Engineers near
Hartwell, Ga. Recreation fees here and at
hundreds of other Corps lakes are being
waved for troops and DoD employees on
R&R or redeployment leave after serving in
a combat zone.




                                             i
The Honorable

John Paul Woodley, Jr.
Assistant Secretary of the Army
(Civil Works)




                                  ii
For more than 200 years, in both war and peace, the Corps of Engineers has been a critical part of the Army team. The
Corps has important roles and responsibilities in three arenas – Civil Works, military construction and reimbursable
support for other Federal and non-Federal agencies. National security interests associated with the Global War on
Terrorism, plus humanitarian needs created by natural disasters, have produced a continuing requirement for stability and
reconstruction assistance in various parts of the world, and for rapid response to emergency developments within the
United States and elsewhere.

The Corps excels at maintaining a vibrant Civil Works program while attending to its military and contingency missions
at home and abroad. Work on the system of levees and floodwalls in the New Orleans area continues and is expected to
be completed in 2011. This system, which is designed to provide protection from a flood that has a one percent chance of
occurring in any given year, will offer greater hurricane and storm damage risk reduction for New Orleans than ever before
in the city’s history. Hurricane Gustav already has tested the system’s resiliency and highlighted the importance of risk
reduction. Hurricanes Ike and Gustav also wreaked havoc in parts of Texas and Louisiana. The Corps responded quickly
to the destruction and continues to support FEMA with recovery operations in the affected areas with expedited levee
repairs, and where appropriate, non-structural solutions to reduce future flood risks and improve floodplain management
coordination. Similar measures have been undertaken in the Midwest.

The Corps is committed to improving the reliability of water resources infrastructure using a risk based asset management
strategy. It continues to optimize water resources infrastructure operating and investment decisions, balancing expected
benefits against predicted costs within available funds, thereby helping to ensure that projects and investments meet the
Nation’s evolving needs.

This annual report addresses Civil Works financial management in the program areas of navigation, flood and coastal storm
damage reduction, aquatic ecosystem restoration, hydropower, recreation, environmental stewardship, water supply,
regulation of water and wetlands, cleanup of atomic waste sites and emergency management. Challenges abound in each of
these programs and the Corps is addressing them by striving to achieve its strategic goals. The Army’s commitment to the
Civil Works program remains strong. Sustainable development, environmental restoration, infrastructure modernization,




                                                                                                                              Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
effective disaster response, and world-class public engineering are strategic goals that will advance the economic strength
and environmental well-being of our Nation.




                                                                          John Paul Woodley, Jr.
                                                                          Assistant Secretary of the Army
                                                                          (CivilWorks)




                                                         iii
               “We have magnificent Soldiers, leaders and 

            civilians. They are ordinary people who are doing 

                    extraordinary things for our country.”

                         General George Casey, Chief of Staff of the Army




Civil Works Fund                                 iv
                                                 Overview
                                                 Mission
                                                 The civil works mission of the United States Army
                                                 Corps of Engineers (USACE) is to contribute to the
                                                 national welfare and serve the nation with quality,
                                                 responsive development and management of the
                                                 nation’s water resources; protection, restoration and
                                                 management of the environment; disaster response and
                                                 recovery; and engineering and technical services. The
                                                 mission will be accomplished in an environmentally
                                                 sustainable, economic and technically sound manner
                                                 through partnerships with other governmental agencies
                                                 and nongovernmental organizations.


                                                 Developing and Managing Water
                                                 Resources
                                                 The original role of the USACE in civil works, as it
                                                 related to developing and managing water resources,
                                                 was to support navigation by maintaining and improving
                                                 federal navigation channels. Over the years and through
                                                 subsequent legislation, the Corps’ role has expanded to
                                                 include flood risk management, improvement of aquatic
                                                 habitat, generation of hydroelectric power, creation of
                                                 recreation opportunities, provision of water storage
                                                 for municipal and industrial water supplies, regulation




                                                                                                           Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
                                                 of discharges into navigable waters and emergency
                                                 planning and management.


                                                 Protecting, Restoring and Managing
                                                 the Environment
                                                 The Rivers and Harbors Act of 1890 required the Corps
                                                 to prevent the obstruction of navigable waterways.
                                                 As concern over the environment grew in the late
                                                 20th century, the National Environmental Policy
                                                 Act of 1969 and the CleanWater Act of 1972 greatly
                                                 broadened the scope of the Corps’ responsibility for
                                                 regulation of discharges into U.S. waters, including
                                                 the country’s wetlands. The civil works program’s
                                                 environmental responsibilities have continued to grow
Aerial view of Port of Oakland and Harbor.       through additional legislation and now include aquatic
Oakland, California.                             ecosystem restoration, remedial activities at former
                                                 defense sites and stewardship responsibilities.




                                             1
                                                                                                  Mark Twain Lake’s Clarence Cannon
                                                                                                  releases a record setting 42,000 cfs on
                                                                                                  Tuesday, July 29, 2008. Releases were
                                                                                                  increased the next day, setting a new
                                                                                                  record of 54,000 cfs.




Responding and Assisting in Disaster Relief
Throughout the Corps’ history, the United States has relied on the civil works program for help in times of natural and
man-made disasters. The Corps responds to natural disasters under the Flood Control and Coastal Emergency Act
(P.L. 84-99, as amended). The Corps responds to man-made disasters under the Robert T. Stafford Disaster Relief and
Emergency Assistance Act (P.L. 93-288, as amended). The primary role of the civil works program in emergency relief and
recovery operations is to provide public works and engineering support.


Providing Engineering Support and Technical Services
In Titles 10 and 33 of the U.S. Code, Congress expresses its intent for the Corps to provide services on a reimbursable
basis to other federal entities; state, local and tribal governments; private firms; and international organizations. Additional
authority to provide services to all federal agencies is found in Titles 15, 22 and 31 of the U.S. Code. This authority
includes providing services to foreign governments.




Civil Works Fund                                                   2
         Civil Works Programs
         The Corps operates multiple programs to accomplish its mission. Each program specifically addresses a single mission
         component, but each may also contribute to one or more other program missions. Figure 1 lists the programs that receive
         direct appropriations, and the funds used for executive direction and management of those programs.

                                            Figure 1 – FY 2008 Civil Works Initial Appropriation by Business Line
                                                                     (Amounts in millions)
                                                         $4

                                    $5                        $180
                                $140               $267
                           $110



                                                                                                                        Navigation
                                                                                                                        Flood Risk Management
                                                                                                                        Hydropower
                                 $515                                                                                   Regulatory
                                                                                                                        Environment-Ecosystem Restoration
                                                                                               $1,999                   Environment-Stewardship
                                                                                                                        Environment-FUSRAP
                               $180                                                                                     Emergency Management
                                                                                                                        Recreation
                                                                                                                        Water Supply
                                      4
                                 $26                                                                                    Executive Direction and Management




                                                              $1,735




                                                                                                                                                                            Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
         Note: An additional $193 million (3.5 percent of the total appropriation) was received for environmental infrastructure projects, which are neither budgeted nor
         associated with any business line. This brings the total initial appropriation to $5,592 million.




Nesting Least Tern Pair in the Sandbar
Habitat on the Missouri River below
Gavins Point Dam. Yankton, South
Dakota




                                                                                      3
Navigation
The navigation program is responsible for providing safe, reliable, efficient and environmentally sustainable waterborne
transportation systems for the movement of commercial goods and for national security needs. The program seeks to
meet this responsibility through a combination of capital improvements and the operation and maintenance of existing
infrastructure projects. The navigation program is vital to the nation’s economic prosperity: 95 percent of America’s
overseas international trade moves through its ports. Our nation’s marine transportation system (MTS) encompasses
a network of navigable channels, waterways and infrastructure maintained by the Corps, as well as publicly- and
privately-owned vessels, marine terminals, intermodal connections, shipyards and repair facilities. The MTS consists of
approximately 12,000 miles of inland and intracoastal waterways; approximately 350 coastal, Great Lakes and inland
harbors; and channel projects maintained by the Corps.

This program, estimated at $2 billion, accounted for 37 percent of civil works initial appropriations in FY 2008.


Flood Risk Management
The Flood Risk Management Program, formerly known as the Flood and Coastal Storm Damage Program, is aimed at
reducing property damage and risk to human safety in the event of floods and coastal storms. The civil works program
has constructed 8,500 miles of levees and dikes, 383 reservoirs and more than 90 storm damage reduction projects along
240 miles of the nation’s 2,700 miles of shoreline. Upon completion, and with the exception of reservoirs, most of the
infrastructure built under this program is transferred to the sponsoring cities, towns and agricultural levee districts that
own and operate the projects.

Over the years, the Corps’ mission of addressing the causes and impacts of flooding has evolved from flood control and
flood prevention and, more recently, from more comprehensive flood risk management. These changes reflect a greater
appreciation for the complexity and dynamics of flood problems – the interaction of natural forces and human development
– as well as the federal, state, local and individual partnerships necessary for thorough management of the risks caused by
coastal storms and heavy rains.




                                                                                                Gavins Point Dam, South Dakota.




Civil Works Fund                                                  4
Eagle flies by Lock 14 Pleasant Valley,
Iowa.




           Risk management is defined as the process of identifying, evaluating, selecting, implementing and monitoring actions
           taken to mitigate levels of risk. The goal of risk management is scientifically sound, cost-effective, integrated actions that
           reduce risks while taking into account social, cultural, environmental, ethical, political and legal considerations. The
           Corps’ approach to flood risk management includes collaborations with partners and stakeholders—i.e., the Federal
           Emergency Management Agency (FEMA), the Department of Housing and Urban Development, the National Oceanic and
           Atmospheric Administration, several states governments, sponsors and affected citizens—that effectively and efficiently,
           make the nation more aware of flood risk.

           In FY 2008, this $1.74 billion program accounted for just over 31 percent of civil works appropriations.




                                                                                                                                            Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
           Environment
           The Corps has three distinct programs that are focused on the environment: aquatic ecosystem restoration; stewardship of
           Corps lands; and the Formerly Utilized Sites Remedial Action Program (FUSRAP).

           Aquatic Ecosystem Restoration. The Army’s mission in the area of aquatic ecosystem restoration is to help restore aquatic
           habitat to a more natural condition in ecosystems whose structures, functions and dynamic processes have become
           degraded. The emphasis is on restoration of nationally- or regionally-significant habitat where the solution primarily
           involves modifying the hydrology and geomorphology. In FY 2008, the aquatic ecosystem restoration program received
           $515 million, approximately 9.2 percent of the total initial appropriation.

           Environmental Stewardship. The environmental stewardship program focuses on the management, conservation and
           preservation of natural resources on 11.5 million acres of land and water at 456 multipurpose Corps projects. Among
           other environmental activities, program personnel monitor water quality at Corps dams and operate fish hatcheries
           in cooperation with state wildlife agencies. The program includes compliance measures to ensure that Corps projects
           meet federal, state and local environmental requirements; prevention; and conservation. In FY 2008, the environmental
           stewardship program received $110 million, a figure that comprised 2 percent of the total initial appropriation.




                                                                      5
FUSRAP. Under the FUSRAP, the Corps cleans up former Manhattan Project and Atomic Energy Commission sites, making
use of expertise gained in cleaning up former military sites and civilian hazardous waste sites under the Environmental
Protection Agency Superfund program. In FY 2008, the FUSRAP program received $140 million, or approximately
2.5 percent of the total initial appropriation.


Regulation of Wetlands and Waterways
In accordance with the Rivers and Harbors Act of 1890 (Sec. 10) and the Clean Water Act of 1972 (Sec. 404), as amended,
the Army Civil Works Regulatory Program regulates the discharge of dredged and fill material into U.S. waters, including
wetlands. The Corps implements many of its oversight responsibilities by means of a permit process. Throughout the
permit evaluation process, the Corps must comply with the National Environmental Policy Act and other applicable
environmental and historic preservation laws. In addition to federal statutes, the Corps must also consider the views of
other federal, tribal, state and local governments and agencies; interest groups as well as the general public when rendering
its final permit decisions.

In FY 2008, this $180 million program accounted for a little more than 3 percent of civil works appropriations.


Emergency Management
Throughout Corps history, the United States has relied on the civil works program for help in times of national disaster.
Emergency management continues to be an important part of the civil works program that supports the Department of
Homeland Security in carrying out the National Response Framework. It does this by providing emergency support in the
areas of public works and engineering, and by conducting emergency response and recovery activities under authority of
Public Law 84-99. The Corps responds to more than 30 presidential disaster declarations in a typical year, and its highly-
trained workforce is prepared to deal with both man-made and natural disasters.

Hurricanes Katrina, Rita,Wilma and Ophelia caused significant damage to the flood and hurricane protection projects along
the Gulf Coast and South Atlantic states. Hurricane Katrina, alone, resulted in federal costs of approximately $125 billion
in Louisiana, Mississippi and Alabama. USACE costs to repair and upgrade the New Orleans Hurricane and Storm Damage
Risk Reduction System (HSDRRS) will be approximately $14 billion. Major damage to the storm protection system in the
New Orleans area included overtopping of 47 sections of levees and the failure of three floodwalls along Lake Pontchartrain
and vicinity. In addition, several New Orleans-to-Venice projects required extensive repairs prior to the beginning of the
2006 hurricane season.

Coupled with its repair efforts, the Corps began studying ways to improve hurricane protection in the vicinity of Lake
Pontchartrain. The Corps commissioned a Hurricane Protection Decision Chronology (HPDC) shortly after Hurricane
Katrina in order to collect, record and analyze project memoranda, reports and related documentation. This material was
used to better understand how complex social and political decision-making processes contributed to the HSDRRS and
how those processes might be improved. Subsequently, a report provided an explanation—as opposed to an evaluation—of
the way in which Corps’ policies and organization, legislation, financial and other factors influenced decisions that led to the
HSDRRS protective structures in place when Hurricane Katrina struck.

The HPDC focus on project decision-making complemented the engineering forensics investigations conducted by the
Interagency Performance Evaluation Task Force and other institutions. The HPDC’s purpose is to make predictions about
the future by looking at historical data, and it demonstrated that no single individual, agency, organization or decision was
solely responsible for the development of the HSDRRS over the course of its 50-year history. The Corps is committed to
open, transparent communication with the American public regarding the ‘lessons learned’ in the aftermath of Hurricane
Katrina.



Civil Works Fund                                                  6
Workers under contract to the U.S.
Army Corps of Engineers use heavy
equipment to clear trees killed by
flooding caused by Hurricane Katrina.




           The Corps not only contributes to domestic emergency management efforts, but also plays a major role on the
           international stage through its participation in the civil military emergency preparedness program. In support of the DoD,
           the Corps shares emergency management knowledge and expertise with U.S.Allies and partners in the former Soviet
           Republics and Eastern Europe. This valuable program brings together key leaders and builds relationships among nations in
           direct support of the National Defense Strategy.

           In FY 2008, this program received approximately $45 million in supplemental appropriations for the National Emergency
           Preparedness Program in Flood Control & Coastal Emergencies funding, which supports continuity of operations activities,
           non-natural disaster preparedness activities and flood fighting. This amount is less than 1 percent of the total civil works
           appropriation. This program did not receive funding in the regular civil works appropriation.




                                                                                                                                          Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
           Hydropower
           The Corps’ multipurpose authorities provide hydroelectric power as an additional benefit of projects built for navigation
           and flood control. The Corps is the largest owner-operator of hydroelectric power plants in the United States and
           one of the largest in the world. The Corps operates 350 generating units at 75 multipurpose reservoirs, mostly in the
           Pacific Northwest; they account for about 24 percent of America’s hydroelectric power and approximately 3 percent of
           the country’s total electric-generating capacity. Its hydroelectric plants produce nearly 100 billion kilowatt-hours each
           year—sufficient to serve about 10 million households equal to ten cities the size of Seattle,Washington. Hydropower is a
           renewable source of energy and one of the least environmentally disruptive sources of electric power, producing none of
           the airborne emissions that contribute to acid rain or the greenhouse effect.

           In FY 2007, this $264 million program accounted for almost 5 percent of civil works appropriations.




                                                                    7
                                                                                                 Harry S. Truman Power Plant. Turbines.
                                                                                                 Warsan, MO.




Water Storage for Water Supply
Conscientious management of the nation’s water supply is critical to limiting water shortages and lessening the impact
of droughts. The Corps has an important role in ensuring that homes, businesses and farms, nationwide, have enough
water to meet their needs. The Corps has the authority for water supply in connection with construction, operation and
modification of federal navigation; flood damage reduction; and multipurpose projects.

In FY 2008, this $4 million program accounted for less than 1 percent of civil works appropriations.


Recreation
The Corps is an important provider of outdoor recreation, which is an ancillary benefit of its flood prevention and
navigation projects. The Corps’ recreation program provides quality outdoor public recreation experiences in accordance
with its three-part mission: 1) serve the needs of present and future generations; 2) contribute to the quality of American
life; and 3) manage and conserve natural resources consistent with ecosystem management principles.

The Corps administers 4,488 recreation sites at 423 projects on 12 million acres of land. During fiscal year 2007, 10 percent
of the U.S. population visited a Corps project at least once. These visitors spent $18 billion pursuing their favorite outdoor
recreation activities, which, in turn, supported some 350,000 full- and part-time jobs.

In FY 2008, this $267 million program accounted for less than 5 percent of the civil works budget.




Civil Works Fund                                                  8
Organizational Structure
The Workforce
The Corps employs approximately 35,000 people, including 650 military officers and 24,800 civilians who perform civil
works duties. It is funded through the energy and water development appropriation and executes programs through
eight regional divisions and 38 of the 41 districts of the Corps of Engineers; the three remaining districts are dedicated
to military-related missions. There is a ninth provisional division in the Gulf Region that supports operations in Iraq and
Afghanistan; it has three provisional districts embedded within the division. There is also a provisional district in Afghanistan
that reports directly to Corps headquarters.

Figure 2 shows the division boundaries. These are defined by watersheds and drainage basins, reflecting the water resources
nature of the civil works mission. Through its Pacific Ocean and South Atlantic Divisions, the Corps also has civil works
responsibilities in the Territory of American Samoa, the Territory of Guam, the Commonwealth of the Northern Mariana
Islands, the Commonwealth of Puerto Rico and the U.S.Virgin Islands.

The distribution of civil works employees again highlights the program’s customer focus: 95 percent of employees work
at the district level (in labs or field operating agencies) reflecting the fact that project management and operations and
maintenance activities are performed at the local (i.e., district) level. The civil works program contracts out to civilian
companies all of its construction and most of its design work. As many as 150,000 people are indirectly employed in
support of civil works projects. These contractual arrangements have served the nation well in times of emergency.

                                              Figure 2 – Civil Works Boundaries
                                                                                                                                   North
                                                                                    Great Lakes                                   Atlantic
                          Seattle
                                                                                    & Ohio River
    Alaska                                                                                                                      New
                                                                 St.                                                           England
               Portland     Walla    Northwestern                Paul                               Buffalo




                                                                                                                                                    Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
                            Walla
                                                                                        Detroit
                                                                         Rock                        Pittsburgh            New York
                                                                         Island
                                                      Omaha                                Chicago                Philadelphia
                   Sacramento                                                                Cincinnati Baltimore
                                                     Kansas City                 St. Louis            Huntington
San                                                                                                              Norfolk
Francisco                 South Pacific                                                  Louisville
                                                                                           Nashville
                                                                        Little
                                                          Tulsa         Rock                                         Wilmington
         Los                                                                           Memphis
         Angeles                                    Southwestern                                                   Charleston
                                    Albuquerque                                                 Atlanta
                                                     Ft. Worth                                                Savannah
                                                                                          Mobile
                                                                            Vicksburg                          Jacksonville
    Honolulu                                                  Dallas
                                                         Galveston                       New                             South
                           Pacific Ocean                                                 Orleans
                                                                                                                        Atlantic
                                                                    Mississippi Valley
                                                                                                                     Legend:
                                                                                                                        Div./Regional HQ location
                                                                                                                        District HQ location
                                                                                                                        Division boundary
                                                                                                Key                     District boundary
                                                                                    Follows Watershed Boundaries        State boundary




                                                            9
The Leadership
Oversight of civil works is provided through four levels of authority. As shown in Figure 3, the Assistant Secretary of
the Army for Civil Works (ASA(CW)) is appointed by the President and is responsible for civil works policy. The Chief
of Engineers is a military officer who reports to the ASA(CW) and who is responsible for mission accomplishment;
however, he delegates the management of this program to the Director of CivilWorks. The Chief of Engineers, through
the Director of CivilWorks, is responsible for the leadership and management of the civil works program and for ensuring
that policies established by the ASA(CW) are applied to all phases of the civil works mission. The divisions, commanded
by division engineers, are regional offices responsible for the supervision and management of their subordinate districts, to
include oversight and quality assurance. Districts are the foundation of the civil works mission, managing water resource
development over a project’s life cycle.

                                         Figure 3 – Civil Works Levels of Authority



                                                        ASA (CW)
                                                   Provides policy guidance




                                                 Chief of Engineers
                                                    Applies policy guidance




                                                    Director of CW
                                            Acts on behalf of the Chief of Engineers
                                                       policy guidance




                                                       8 Divisions
                                                Supervise and manage districts
                                             Perform quality assurance on districts




                                       Plan           38 Districts              Operate
                                       Design    Construction Management        Maintain




Civil Works Fund                                                  10
Civil Works Fund Performance Results
Civil works directly impacts America’s prosperity, competitiveness, quality of life and environmental stability. In March
2004, the Corps’ leadership published a strategic plan that provides a framework for enhancing the sustainability of
America’s resources. The strategic goals listed in the plan support the strategic direction of the Corps over the five-year
period from FY 2004 – FY 2009. Key performance measures, developed in conjunction with the Office of Management
and Budget through the Performance Assessment Rating Tool process for FY 2002 – FY 2008, are presented below.


Goal 1:	 Provide Sustainable Development and Integrated Management of the Nation’s Water
         Resources.
Navigation
             Objective: To invest in navigation infrastructure that is fully capable of supporting maritime requirements in environmentally
             sustainable ways where economically justified.

             Performance Indicator: Track navigation lock and channel availability by: 1) identifying trends in scheduled
             and unscheduled lock closures for the inland and intracoastal navigation system, measured in hours and weeks,
             and 2) identifying trends in channel availability for coastal navigation projects, measured in percent-of-time
             available.

             Performance Result: The Corps uses the same indicators as in Goal 3; please see Table 4 for results.

Flood Risk Management
             Objective: To invest in environmentally-sustainable flood and coastal storm damage reduction solutions for the nation through
             the safe operation of flood reduction infrastructure when benefits exceed costs.

             Performance Indicator: This is measured by the performance of civil works facilities in reducing damage
             and risk to human safety where flooding otherwise would have occurred.

             Performance Result: The Corps uses the same indicators as in Goal 3; please see Table 6 for results.




                                                                                                                                                 Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
Hydropower
             Objective: To invest in hydropower solutions when benefits exceed costs.

             Performance Indicators: The availability of hydroelectric generating units during peak power-demand
             periods; their generating capacity and forced outage rates are indicators of success in meeting this objective.

             Performance Result: The Corps uses the same indicators as in Goal 3; please seeTable 8


Goal 2: 	 Repair Past Environmental Degradation and Prevent Future Environmental Losses
Aquatic Ecosystem Restoration
             Objective: Restore degraded significant ecosystems structure function, and process to a more natural condition by investing
             in restoration projects or features that make a positive contribution to the nation’s environmental resources in a cost-effective
             manner.

             Funding History: The first row of Table 7 displays the funding for aquatic ecosystem restoration.

             Performance Indicators: The Corps has established six indicators to assess progress in meeting this
             objective. The Corps began collecting performance data for four of these indicators during fiscal years 2005 and
             2006. Data are shown in Table 7.



                                                                  11
            ¨	 Acres of habitat restored, created, improved or protected – annual. The number of acres of
               habitat restored is an appropriate measure for documenting progress in restoring degraded ecosystems.

            ¨	 Nationally-significant acres of habitat restored, created, improved or protected – annual.
               This measure documents the number of acres of habitat restored each year that have high-quality outputs as
               compared to national needs.
            ¨	 Cost per acre to restore, create, improve or protect nationally-significant habitat. The per-
               acre cost of projects that produce nationally-significant acres in any given year are used to calculate this
               figure. Over the long term, through efficiencies in project execution or other actions, the goal is to restore
               the most acres per dollar expended.

            ¨	 Percent of all restored, created, improved or protected acres of habitat that are nationally
               significant. This is a four-year rolling average of acreage restored over the previous four years that meets
               the criteria for national significance, and that is expected to have the greatest impact on restoration of the
               nation’s ecosystems. The long-term goal calls for 75 percent of the total acres restored, in each four-year
               period, to be nationally-significant acreage.

           The following two indicators were developed during FY 2008 (data will be available for reporting purposes in
           FY 2009):

            ¨	 Number of acres of habitat restored, created, improved or protected – long term. This is
               a periodic aggregate of the total acres of habitat restored, created, improved or protected in a four-year
               period.

            ¨	 Number of nationally-significant acres of habitat restored, created, improved or protected
               – long term. This is a periodic aggregate of the total nationally-significant acres of habitat restored,
               created, improved or protected within a four-year period.

Performance Results
A significant portion of the FY 2008 funds for this program advanced the Everglades South Florida/Central and South
Florida projects. Examples include restoration of the Kissimmee River, the Seminole Big Cypress restoration, Manatee
pass-through gates and the South Dade County C-111 modification. A significant focus was to meet the biological
opinion requirements for the Columbia River system and the Missouri River. Other projects with major expenditures
included restoration of Poplar Island, MD; Hamilton Airfield,Wetlands, CA; the upper Mississippi River restoration; and
modifications to the Chicago Sanitary and Ship Canal to block Asian carp entry into the Great Lakes from the Mississippi.
In addition, the Corps conducted a substantial number of studies exploring ecosystem restoration options in a variety of
diverse ecosystems across the country.

The original targets for FY 2008 performance were based on the scheduled completion of 33 projects. Approximately
half that number were completed. The project mix was significantly different from the original list, and three of the larger
projects scheduled for completion were delayed. One project, Long Meadow Lake, MN, accounts for over one-half of the
acres restored in FY 2008. Due to the relatively small number of projects scheduled for completion in any one year, as well
as the large range of acres involved in these projects, significant fluctuations in the acreage completed are common.




Civil Works Fund                                                 12
                                            Table 1 – Aquatic Ecosystem Restoration Indicators

                                                                                                                             FY 2008 (Note 1)
                                                         FY 2005              FY 2006              FY 2007                Target               Actual
 Funding history in millions of dollars                    $408                 $516                 $340                  $515                 $429
 Acres of habitat restored, created,
 improved, or protected – annual                          32,573                6,600                4,838               17,800                 2435
 Nationally significant acres of habitat
 restored, created, improved, or
 protected – annual                                                             5,500                2,987               15,400                 1986
 Cost per acre to restore, create,
 improve, or protect nationally                           Note 2
 significant habitat                                                           $9,800               $6,800               $2,400                $6,700
 Percent of all restored, created,
 improved, or protected acres of
 habitat that are nationally significant                                        83%                   62%                  86%                  82%
Note 1: Beginning in FY 2008, this business program credits acres in a given year when physical construction is complete, instead of the last year that the
project is budgeted in the construction account. This change is due to the increased use of fully-funded contracts and funding of the out-year monitoring
requirements.

Note 2: Performance measures were developed in FY 2006, the first year of reporting.

Regulatory
              Objective: To administer the regulatory program in a manner that protects the aquatic environment (ensures zero net-loss of
              wetlands) while making timely, fair permit decisions.

              Funding History: The first row of Table 2 displays the funding of the regulatory program.

              Performance Indicators: Table 2 lists eight measures that serve as indicators to assist Corps personnel in
              determining progress in meeting this objective.




                                                                                                                                                              Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
               ¨ Individual permit compliance. The percent of all individual permits on which the Corps completed
                 an initial compliance inspection; permits measured are those issued during the previous fiscal year where
                 authorized work has begun.
               ¨ General permit compliance. The percent of all general permits on which the Corps completed an
                 initial compliance inspection; permits measured are those issued during the previous fiscal year where
                 authorized work has begun.
               ¨ Mitigation site compliance. The percent of field compliance inspections completed on active
                 mitigation sites each fiscal year. Active mitigation sites are those sites authorized through the permit
                 process, monitored as part of the permit process, but which have not met final approval under the permit
                 special conditions.
               ¨ Mitigation inspections or audits. The percent of compliance inspections or audits completed on
                 active mitigation banks and in-lieu-of-fee programs.
               ¨ Resolution of non-compliance issues. The percent of non-compliance issues identified during the
                 current fiscal year on which the Corps reached resolution. This addresses non-compliance with permit
                 conditions.
               ¨ Resolution of enforcement actions. The percent of pending enforcement actions (i.e., unauthorized
                 activities) identified during the current fiscal year on which the Corps reached resolution.




                                                                        13
                 ¨	 General permit decisions. The percent of permit decisions made within 60 days on general permit
                    applications.

                 ¨	 Individual permits. The percent of permit decisions made within 120 days on general individual permit
                    applications. This standard shall not include individual permits with formal Endangered Species Act (ESA)
                    consultations.

Performance Results
Fiscal Year 2008 funds were used to hire and support regulatory personnel in analyzing projects and making permit
decisions, completing necessary compliance efforts on issued permits, and investigating and resolving instances of alleged
unauthorized activities within the nation’s waters.

Promulgation of guidance associated with the Supreme Court decision on the Carabell and Rapanos1 cases significantly
increased the staff workload for many jurisdictional determinations. The regulatory program continues to experience
high levels of scrutiny from the public, elected officials and interest groups as development pressures mount and national
public awareness of the importance of aquatic resources continues to grow. Court decisions at the local, state, regional and
national levels continue to require adjustments to the program. Increased sensitivity to the functions and services provided
by wetlands has resulted in greater direct input from the public, environmental and development interest groups, as well
as federal and state resource agencies. This has led to greater scrutiny, and subsequent controversy, in the review of permit
proposals.

The Corps has implemented several initiatives to speed the permit decision process and improve environmental review
and documentation. In several districts, the regulatory program arranged Lean Six Sigma analyses of the individual permit
process in an effort to streamline the process and reduce waste. The program also continues to make improvements to
a nationwide spatial database that tracks all Corps permits, thereby enabling better decision-making and more efficient
permit processing. Through a nationwide network of subject matter experts, the Corps is implementing a program to
increase use of programmatic general permits, which will expand overall technical expertise and reduce the number of
routine Corps actions. All these initiatives directly support the Corps’ efforts to expedite permit review while improving
environmental analysis and documentation.




1
    Rapanos v. United States and Carabell v. Army Corps of Engineers 126 S. Ct. 2208 (2006).




Civil Works Fund                                                                 14
                                                     Table 2 – Regulatory Indicators

                                                                                                                         FY 2008
                                                                  FY 2005        FY 2006         FY 2007          Target         Actual
 Funding history in millions of dollars                             $143           $158            $159           $180            $176
 Percent of compliance inspections on individual
 permits                                                            14%            41%             11%             10%             22%
 Percent of compliance inspections on general
 permits                                                              5%            7%              7%             5%              7%
 Percent of active mitigation sites inspected                         9%           10%              7%             5%              18%
 Percent of compliance inspections on active
 mitigation banks                                                   19%            26%             63%             20%             39%
 Percent resolution on non-compliance with permit
 conditions or mitigation requirements                              24%            37%             56%             20%             28%
 Percent resolution on pending enforcement
 actions                                                            23%            60%             82%             20%             34%
 Percent of general permit application decisions
 made within 60 days                                                85%            82%             78%             75%             82%
 Percent of standard permits and letter of
 permission permit decisions made within 120 days                   61%            61%             53%             50%             51%
Note 1: Estimated due to historic data conversions


Environmental Remediation (Formerly Utilized Sites Remedial Action Program-FUSRAP)
              Objective: To achieve the cleanup objectives of the FUSRAP. The Corps uses three outcome measures to indicate progress in
              meeting this objective: 1) minimize risk to human health and the environment; 2) maximize the cubic yardage of contaminated
              material disposed in a safe and legal disposal facility; and, 3) return the maximum number of affected individual properties to
              beneficial use.

              Funding History: The first row of Table 3 displays funding for environmental remediation.




                                                                                                                                                Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
              Performance Indicators: The measures listed in Table 3 serve as indicators to help Corps personnel
              determine progress in meeting this objective. In addition to the indicators explained below, the Corps has
              begun to measure both the cumulative percentage of FUSRAP funding expended on actual cleanup activities, as
              well as the total cost of disposing of contaminated material.

              ¨ Number of records of decision (ROD) signed. As studies are completed and best alternatives for
                cleanup activities are decided, the number of RODs will increase. A final ROD establishes the final cleanup
                standard, which controls the actual estimate of the remaining environmental liability for each site.

              ¨ Number of remedial investigations (RI) completed. The RI establishes the baseline risk assessment
                whereby the level of risk to human health and the environment is identified.

              ¨ Number of action memorandums signed. Where warranted by risk or other limiting factors, action
                memorandums allow the Corps to move toward reducing risk more rapidly than through production of a
                ROD. No action memorandums are presently identified.

              ¨ Cubic yardage of contaminated material disposed. Target soil amounts are dependent on
                previous-year funding and scheduled activities.

              ¨ Individual properties returned to beneficial use. Number of properties released for general use
                following remediation.



                                                                 15
              ¨	 Number of remedies in place or response complete. As select portions of sites or complete
                 sites meet their remedial action goals, risks to human health and the environment are reduced to within
                 acceptable levels. Properties may be used within a community without fear of increased cancer risk or
                 further degradation of the environment.

              ¨	 Percentage of funding expended on cleanup. Measures the cumulative three-year percentage of
                 FUSRAP funding expended on cleanup activities rather than on studies. Baseline for this measure was
                 established in FY 2004; results are reported every three years.

Data are being gathered on one other performance indicator (below) and will be reported as soon as a complete year’s
worth of data is available.

              ¨	 Remediation of contaminated material. The cost to dispose of contaminated material as measured
                 in cubic yards. Data for this measure will not be available until late FY 2009.

Performance Results
FiscalYear 2008 funds were used to continue remedial activities at the Painesville, Linde, Maywood and St. Louis vicinity
property sites. Remedial activities will continue at other sites with the excavation of 130,000 cubic yards of contaminated
material. Remedial investigations were completed at the Niagara Falls Storage Site and the Iowa Army Ammunition Plant
site. RODs were completed at the Tonawanda Landfill and Luckey Ground Water sites.

FUSRAP met or exceeded five of the seven FY 2008 performance indicators. The exceptions were the metrics that
measured the number of RODs signed and the remedies in place. The Corps did not complete the ROD for the Harshaw
Site IA-6 operable unit as planned; the ROD for this operable unit will be completed in FY 2009. Due to a significant
increase in soil volume, the remedial work at the Painesville site was not completed as planned. As of the printing of this
report, the completion date for the remedial work at this site is unknown.

                                                     Table 3 – Remedial Action Indicators

                                                                                                                            FY 2008
                                                                   FY 2005           FY 2006            FY 2007     Target           Actual
 Funding history in millions of dollars                              $164               $139              $138       $140             $132
 Number of RODs signed                                                  3                 2                 5          3                2
 Remedial investigations completed                                      5                 4                 0          2                2
 Action memos signed                                                    0                 1                 0          0                0
 Contaminated material removed (in thousand                          243.0             225.0              185.6       125             153.8
 cubic yards)
 Individual properties returned to beneficial use                       5                15                 27        34               40
 Remedies in place or response complete                                 2                 0                 4          1                0
 Percentage of funding expended on cleanup                                             Note 1                        80%             84.3%
Note 1: This is a new measure for FY 2008. The measure is cumulative and data will be reported every third year.



Goal 3: Ensure that Projects Perform to Meet Authorized Purposes and Evolving Conditions
Navigation
              Objective: Improve the efficiency and effectiveness of existing Corps water resource projects by maintaining justified levels of
              service to commercial traffic of high-use infrastructure (e.g., waterways, harbors, channels).




Civil Works Fund                                                                16
Objective: Address the operations and maintenance (O&M) backlog in operating projects by funding high-priority operations
and maintenance projects.

Funding History: The first row ofTable 4 displays funding for the operation and maintenance of the
navigation program.

Performance Indicators: To assist the Corps in measuring progress in meeting the Goal 3 objectives,
the Corps uses performance indicators that relate to the operation and maintenance activities for inland
and intracoastal waterways and coastal ports and harbors, as well as the efficiency of the overall, combined
navigation system. Indicators are described below and their measures are shown in Table 4.

Operation and maintenance measures for inland and intracoastal waterways, including major rehabilitations

¨	 Ton-miles. The sum total of movement of cargo on the waterways; this measure is a roll-up of tons
   of cargo transported by a vessel multiplied by the miles that vessel traveled on a particular inland or
   intracoastal waterway. Although there is no specific target generated by the Corps, this indicator is used for
   trend analysis.

¨	 Segment availability. (Formerly titled Navigation Lock Availability. Measure was revised slightly to
   better reflect availability of the waterway, including the lock, rather than just availability of the lock.)
   Number of hours where mechanical-driven failure or shoaling results in the closure of all or part of a high-
   or moderate-commercial-use segment for over 24 hours. The measure includes only failures on the main
   chamber of a lock (rather than an auxiliary chamber) and on shoaling due to inadequate dredging (rather
   than low water levels from droughts or channels closed due to floods). It also tracks closures of more than
   one week.

The two measures, listed below, have been replaced with new measures (also below) that better reflect the value
and service to the nation provided by these Corps assets.




                                                                                                                            Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
¨	 Assets with structural risk assessments. The percent of the navigation inland waterway asset
   inventory with recent structural risk assessments.

¨	 Assets with operational risk assessments. The percent of the navigation inland waterway asset
   inventory with recent operational risk assessments.

The Corps developed new performance measures and began data-gathering in FY 2008. Data will be reported
as soon as a complete year’s worth of information is available.

¨	 Channel availability, high-use projects. The percent of time that inland and intracoastal waterway
   segments with high commercial activity are available when customers want to use them. The focus is to
   minimize vessel draft restrictions due to shoaling of the channels, and to minimize local closures due to
   mechanical failures.

¨	 Percent of high-use segments with a good service level. Percent of high commercial-use
   segments with sufficient preventive maintenance to achieve a good level of service. High-use segments
   are the upper- and lower- Mississippi, the Illinois, Ohio and Tennessee Rivers and the Gulf Intracoastal
   Waterway.

¨	 Efficiency measure:Total funds expended per segment ton-mile (five-year rolling average).
   Total O&M funds expended per segment ton-mile averaged over a five-year period, including major
   repairs.



                                                 17
        Operations and maintenance measures for coastal ports and harbors, including major repairs.

        ¨	 Tons of cargo. Total sum of cargo in tons moved in and out of coastal ports and harbor systems. This
           measure indicates utilization of the system, and the data collected are for the purpose of trend analysis.
           Although there is no specific target assigned by the Corps, this indicator is used for trend analysis.

        ¨	 Channel availability, high-use projects. The percent of time that high commercial-traffic navigation
           channels are available to commercial users. There are approximately 59 high-use projects, defined as those
           that pass 10 million or more tons of cargo per year.

        ¨	 Efficiency measure. Operation and maintenance costs per ton of cargo shipped. The measure assesses
           the efficiency of the commercial navigation system at a particular coastal port or harbor.

       The following measure has been replaced. The new measures, described below, better reflect the value and
       service provided to the nation by these Corps assets.

        ¨	 Assets with operational risk assessments. The percent of the navigation port and harbor assets in the
           inventory having had a recent operational risk assessment.

       In FY 2008, the Corps instituted new performance measures and began gathering data.. Data will be reported
       as soon as a complete year’s worth of data is available.

        ¨	 Channel availability, moderate-use projects. The percent of time that moderate commercial-traffic
           navigation channels are available to commercial users. There are approximately 97 moderate-use projects
           that are defined as those passing 1-10 million tons of cargo per year.

        ¨	 Channel availability, low-use projects. The percent of time that low commercial-use channels,
           harbors and locks are available to all current users. There are about 1,000 low-use projects that are defined
           as those passing less than one million tons of cargo per year.

        ¨	 Percent of projects exceeding the facilities condition index (FCI) standard. This measure
           assesses agency performance in meeting the goals of the President’s Real Property Asset Management
           Initiative.

       Construction measures for the navigation system

       In FY 2008, the Corps instituted new performance measures and began gathering data, which will be reported
       as soon as a complete year’s worth of data is available.

        ¨	 High-return investments. The percent of funding to construct, replace and expand projects (excludes
           major repairs or renovations) that is allocated to high-return investments. High-return investment projects
           are defined as those with a benefit-to-cost ratio of 3.0 or greater.

        ¨	 Percent of reports recommending projects reflecting watershed principles. Percent of Chief
           of Engineer’s reports recommending projects for authorization that meet criteria for industry-accepted
           watershed principles. This measure expresses a long-term goal and assesses progress made in watershed-
           based planning.

        ¨	 Average annual benefits attributable to preconstruction engineering and design (PED)
           work completed in current fiscal year. Total average annual benefits (present value) attributable to
           PEDs completed in the current fiscal year. This measure assesses the effectiveness of PED in promoting
           transportation savings.



Civil Works Fund                                                 18
            ¨	 Average annual benefits realized by construction projects completed in current fiscal year.
               Total average annual benefits (present value) realized by construction projects completed in the current
               fiscal year. This measure assesses the effectiveness of the construction program in realizing transportation
               savings.

            ¨	 Percent change in funds required to complete all programmed work. Percent change in
               constant-dollar balance to complete programmed work on all ongoing, budgeted construction projects.
               This measure assesses progress in reducing the backlog of ongoing, budgeted construction projects.

Performance Results
The program has been, and continues to be, successful in providing significant navigation benefits to the nation; however,
the program faces significant challenges in its efforts to maintain the reliability of the inland and intracoastal waterways and
coastal navigation system. The system’s aging infrastructure requires more repairs than the Corps can accomplish, given the
historical level of program appropriations. These same funding shortfalls, coupled with increased costs in dredging operations,
are affecting the Corps’ ability to properly maintain its infrastructure and channels. In recent years, the 27 percent increase in
dredging costs corresponds to the near doubling of fuel purchasing costs and similarly significant increases in steel and labor
costs. Although other factors may limit or control channel availability, the ability to maintain an acceptable waterway width and
depth through dredging operations has, by far, the greatest impact.


Performance Results – Operation and Maintenance
The O&M and MR&T – O&M appropriations were used to fund: 1) continued operation and maintenance of 241 locks at
195 locations and, 2) maintenance dredging of critical and high commercial-use reaches of the 11,000 miles of inland and
intracoastal waterways. Not all waterways were maintained at their authorized dimensions. Many locks and dams forewent
all but the most critically-needed maintenance, and some locks, dams and waterways were only maintained in caretaker
status. The overall condition of the inland and intracoastal waterways is expected to decline, and projects will continue to
experience lock closures due to mechanical breakdowns and failures.




                                                                                                                                     Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
Funding also enabled maintenance dredging of high-use, commercially important coastal ports, harbors and channels;
critical harbors of refuge; and subsistence harbors. Many moderate- and low-commercial-use harbors and channels were
not dredged and continue to shoal, further limiting vessel drafts. For the 59 highest-use coastal ports and harbors, channel
conditions are expected to continue to decline due to large increases in the costs of doing business, particularly as they
relate to fuel, steel and labor. Dredging costs have increased an estimated 27 percent over the past three years. For these
projects, authorized channel depths (for the channel’s center half) were available approximately 35 percent of the time
during fiscal years 2005-2007. The condition of moderate-and low-use inland and intracoastal waterways, as well as coastal
ports and harbors, is expected to continue to decline.




                                                           19
                 Table 4 – Navigation Program, Operation and Maintenance Activities Performance Indicators

                                                                                                                              FY 2008
                                                                             FY 2005       FY 2006      FY 2007        Target        Actual
                        Funding history in millions of dollars                 $1,209       $1,211       $1,298        $1,265       $1,210

                        Segment Availability (thousands of hours)                23           16            19           20         Note 2
     Inland
    waterways           Ton-miles (in billions of ton – miles by
                        fiscal year)                                            271           264          258         Note 1       Note 2

                        Tons of cargo (in billions of tons)                    2.304        2.337         2.298        Note 1       Note 2

  Coastal ports
                        Channel availability, high use projects                38%           35%          32%           30%         Note 2
  and harbors

                        Cost per ton (all channels)                            $0.41        $0.39         $0.43        $0.45        Note 2

Note 1: The Corps does not set targets for this measure.

Note 2: Data not available at time of printing.



Performance Results – Construction and Investigations
Investigations funding, used at various locations throughout the nation, continued the study and design of navigation
improvements to increase economic benefits and reduce transportation costs.

Construction funding for inland waterways was used to continue: 1) major repairs, construction, or replacement of
locks and dams; 2) deficiency corrections; and 3) dam safety assurance, seepage control and to correct static instability.
Construction funding for coastal navigation projects was used for channel deepening and improvement projects Additional
construction funding was used to construct dredged material and beneficial use placement sites as well as to mitigate
shoreline damages caused by navigation projects.

Flood Risk Management
               Objective: To reduce the risk of damages and risk to public safety due to flooding and coastal storms through the safe operation
               of flood damage reduction projects, as authorized.

               Funding History: The first row ofTable 5 displays operation and maintenance funding for flood and coastal
               storm damage reduction. The first row of Table 6 shows construction program funding.

               Performance Indicators: To assist the Corps in measuring its progress in meeting the Goal 3 objective,
               the Corps uses performance indicators that relate to operation and maintenance activities as well as to the
               construction program for flood and coastal storm damage reduction. Beginning in FY 2008, performance
               is measured in both the construction appropriation and the operation and maintenance appropriation. The
               indicators are described below and their measures are shown in Tables 5 and 6.

               Operations and maintenance measures for the flood risk management program

               ¨ Operating projects in zones 21-25 (High Risk). The percent of operating projects (e.g., dams,
                 levees, channels, flood gates) in zones 21-25 of the relative risk ranking matrix.

               ¨ Operating projects in zones 1-6 (Low Risk). The percent of operating projects (e.g., dams, levees,
                 channels, flood gates) in zones 1-6 of the relative risk ranking matrix.



Civil Works Fund                                                          20
            ¨	 Marginal cost of operations. The marginal cost of operations and maintenance for all operating
               projects (e.g., dams, levees, channels, flood gates) relative to damages prevented; shown as a percentage
               (cost of O&M divided by the cost of damages prevented).
            Construction measures for the flood risk management program

            ¨	 Additional people protected. The percent increase, in total affected population with reduced risk at
               project design, attributed to completion of projects in the current fiscal year.

            ¨	 Flood damage prevented. Measures the estimated annual dollars of property damage avoided through
               the existence of Corps flood control projects completed during the fiscal year.

            ¨	 Ten-year moving average. The 10-year moving average of actual flood-damage reduction benefits
               attributable to completed Corps flood control projects.

            ¨	 Increase in benefits realized. The total percent increase in the present value of total benefits realized
               from construction work completed in the applicable fiscal year.

            ¨	 Dam safety projects. The percent of dams in the screening portfolio risk assessment (SPRA) that fall in
               Dam Safety Action Class (DSAC) I, II or III.

            ¨	 Relative loss of life. The total relative annualized loss of life per dam.

            ¨	 DSAC I, II and III projects. The number of DSAC I, II and III projects underway or completed during
               the applicable year.

            ¨	 SPRA assessments completed. The number of SPRA screening-level assessments completed in the
               applicable year.

Performance Results




                                                                                                                               Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
The funds received for FY 2008 were used to operate and maintain federal projects, and to inspect federal projects that
were turned over to local sponsors. Funding allowed the coordination of federal reservoir operating schedules with
private reservoirs within the basin. Projects operated in their targeted relative risk zones as represented by the indicator
performance measures found in Table 10.

Funding was also used to support dam safety program functions. This included the following: 1)monitoring and evaluating
performance (instrumentation) of all dams; 2) accomplishing routine dam safety-related maintenance and repairs;
3) performing all required inspections (periodic, post-earthquake, high-pool, etc.); 4) preparing Emergency Action Plans
(EAPs); 5) performing site-specific dam safety training of project personnel; and 6) implementing force protection security
features.




                                                            21
                          Table 5 – Operations and Maintenance – Coastal and Flood Damage Prevented

                                                                                                                                        FY 2008
                                                                               FY 2005         FY 2006         FY 2007
                                                                                Note 1          Note 1          Note 1          Target          Actual
                        Funding history in millions of dollars                  $1,193          $1,512          $1,774           $566            $678
                        Operating projects in zones 21-25
                        (High Risk)                                                                                                96               96
  Operations &
                        Operating projects in zones 1-6 (Low                                    Note 2
  Maintenance
                        Risk)                                                                                                      49               49
                        Marginal cost of operations                                                                             1.25%           1.25%
Note 1: Prior-year funds were for the total of all expenditures in the Coastal and Flood Damage Reduction Program and should not be compared to the FY
2008 O&M expenditures.
Note 2: New measure for FY 2008, the first year data are collected.



Performance Results – Construction
A portion of FY 2008 funds were targeted to complete the following three projects; however, due to a variety of reasons,
they were not completed during this fiscal year.. The new schedules call for Des Plaines River, IL, completion in 2014; Rio
Puerto Nuevo, PR, completion in 2019; and Cedar Hammock,Wares Creek, FL, completion in 2010.

The work on the SPRA continued during FY 2008. The total number of flood damage reduction dams with completed SPRAs
increased to 277. The percentage of dams in DSAC I, II and III decreased from 55.7 percent in FY 2007 to 45 percent at the
end of FY 2008, with the identification of more DSAC IV dams. The number of dams with completed SPRAs exceeded the
target 34 percent; however, estimated relative loss of life per dam increased. It is expected that this number will decrease in
FY 2009, as all SPRAs are completed and interim risk reduction plans are implemented at the DSAC I and II dams.
                          Table 6 – Construction & Investigation – Coastal and Flood Damage Prevented

                                                                                                                                          FY 2008
                                                                                   FY 2005          FY 2006        FY 2007         Target        Actual
                                                                                    Note 1           Note 1         Note 1
                        Funding history in millions of dollars                        $1,193         $1,512         $1,774        $1,169        $1,107
                        Additional people protected
                        (in thousands)                                                 24              121            142            171            0
                        Flood damage prevented (in millions of
                        dollars)                                                      Note 2         $56.1           $55.6
                                                                                                                                           Note 5
                        Ten-year moving average (in millions of
                        dollars)                                                    $21,400         $20,094        $20,096
  Construction                                                                                                                      18.1
                        Increase in benefits realized                                               Note 3
                                                                                                                                   (5.2%)           0
                        Dam safety projects                                                                         55.7%           56%           45%
                        Relative loss of life                                               Note 4                   0.808         0.770          .949
                        DSAC I, II and III projects                                                                    10            12             12
                        SPRA assessments completed                                     61              61              61            70             94
Note 1: Prior-year funds were for the total of all expenditures in the Coastal and Flood Damage Reduction program and should not be compared to the

FY 2008 construction expenditures.

Note 2: This measure was effective at the beginning of FY 2006.

Note 3: New measure for FY 2008, the first year data are collected.

Note 4: Data not available prior to FY 2007.

Note 5: Data are collected from actual floods occurring throughout the year, and data become available in March following the year of interest. The Corps 

makes no predictions or targets year to year; data are used for trend analysis only.





Civil Works Fund                                                                 22
Environmental Stewardship
          Objective: To improve the efficiency and effectiveness of existing Corps water resources projects.

          Objective: To ensure healthy and sustainable lands and waters and associated natural resources on Corps lands in public trust
          to support multiple purposes.

          Objective: To protect, preserve and restore significant ecological resources in accordance with master plans.

          Objective: To ensure the operation of all civil works facilities and management of associated lands—including out-granted
          lands—complies with the environmental requirements of relevant federal, state and local laws and regulations.

          Objective: To meet the mitigation requirements of authorizing legislation or applicable Corps authorization decision
          documents.

          Funding History: The first row of Table 7 displays funding for environmental stewardship.

          Performance Indicators: To measure success in attaining the objectives shown above, the Corps developed
          seven performance indicators. Data on these indicators may be found in Table 7.

          ¨	 Mitigation compliance. This measure demonstrates the Corps’ performance in meeting mitigation
             requirements that are specified in project authorizations. The measure is a percentage of the acres of
             designated Corps-administered mitigation lands that meet mitigation requirements, divided by the
             total number of acres of designated Corps-administered mitigation lands. The measure can also be the
             number of pounds of fish (or the number of individual fish) produced in a mitigation hatchery, divided
             by the number of fish required to be produced at a mitigation hatchery in order to meet the mitigation
             requirement.

          ¨	 Endangered species protection. The percent of Corps operating projects, with Endangered Species
             Act requirements, for which the Corps is responsible. .




                                                                                                                                          Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
          ¨	 Cultural resources management. The percent of Corps operating projects that meet federally-
             mandated cultural resource management responsibilities.

          ¨	 Healthy and sustainable lands and waters. This measure is defined as the number of Corps fee-
             owned acres classified in a sustainable condition, divided by the total number of Corps fee-owned acres.
             The result provides an indicator of the condition of all Corps fee-owned acres. “Sustainable” is defined
             as meeting the desired state to be classified as healthy and viable; acreage is not significantly impacted by
             any factors that can be managed, and does not require intensive management to maintain its health. The
             acreage also meets operational goals and objectives established in applicable management documents.

          ¨	 Level-one natural resources inventory completion index. This measure demonstrates the
             status of Corps efforts in completing basic, level-one natural resource inventories required by USACE
             Environmental Regulation (ER) 1130-2-540, Environmental Stewardship Operations and Maintenance
             Policies. These inventories are necessary for sound resource management decisions and strategy
             development. The percentage of acres on which level-one inventories have been completed is used to
             evaluate the relative performance in this measure.

          ¨	 Master plan completion. A master plan is completed, per regulation, to foster an efficient and
             cost-effective project for natural resources, cultural resources and recreational management programs.
             This measure demonstrates the Corps’ commitment to fully integrate environmental stewardship in the
             management of operating projects. The measure is expressed as a percentage; it is derived by dividing




                                                               23
                     the number of required master plans completed, in compliance with regulation, by the total number of
                     required master plans.

               ¨	 Efficiency. This concept is represented by program costs recovered in cents-on-the- dollar. The objective
                  is to manage projects in an efficient manner. This measure is an assessment of federal costs avoided in
                  relation to the program cost. Revenue recovered each year, equivalent to the federal costs avoided, will
                  vary due to the nature and extent of the sustainability practices implemented. The program emphasis,
                  however, is on resource sustainability as opposed to revenue generation.

Performance Results
Program funding has decreased in recent years. Combined with the effects of inflation, this decrease has reduced the
Corps’ capability to meet overall target performance objectives. Additionally, shifts in program priorities have influenced
or controlled the results obtained for specific measures. The Corps continued to emphasize program elements required by
statute and regulation, such as mitigation, endangered species and cultural resource management initiatives.

The endangered species protection measure was added as a performance indicator in FY 2007, and baseline data have been
collected for the first time in FY 2008.

The emphasis on mandated initiatives, increased requirements in support of the Endangered Species Act and Mitigation
Compliance, as well as the declining funding trend, have resulted in reduced levels of management and maintenance of
land conditions over the past four years. This is reflected in a decrease in the amount of healthy and sustainable acreage.
Performance in this measure, which represents basic care of the public lands in accordance with the National Environmental
Policy Act, remained at only 18 percent in FY 2008. There was no improvement from FY 2007, and a 3 percent decrease
from FY 2006 was recorded. The funding shortfall contributed to “poor” and “flat” performances, respectively, in the
measures for completion of both natural resource inventories and master plans. Collectively, level-one natural resource
inventories and master plans support responsible land management; without significant improvement in the number of
inventories and plans completed, the risk of failing to protect national assets increases.

                                                  Table 7 – Environmental Stewardship Indicators

                                                                                                                                        FY 2008
                                                                           FY 2005          FY 2006           FY 2007           Target            Actual
 Funding history in millions of dollars                                      $146              $124             $113             $110             $125
 Mitigation compliance                                                        76%              61%              86%              100%             100%
 Endangered species protection                                                               Note 1                              100%             100%
 Cultural resource management                                                        Note 2                     63%              72%               72%
 Healthy and sustainable acreage                                              37%              21%              18%              18%               18%
 Level-one natural resources inventory completed                              33%              38%              40%              41%               38%
 Master plans completed                                                       32%              27%              27%              27%               27%
 Efficiency (in cents-on-the-dollar)                                         $0.09            $0.10            $0.12            Note 3           Note 4
Note 1: This measure becomes effective in FY 2008.


Note 2: This measure was added at the end of FY 2006; FY 2007 is the first year of complete data.


Note 3: In order to ensure that revenue generation is not emphasized at the expense of sustainability, the Corps does not set annual efficiency targets. This

indicator is used for trend analysis.


Note 4: Data not available at time of printing





Civil Works Fund                                                                  24
Hydropower
           Objective: To improve the efficiency and effectiveness of existing Corps water resource projects.

           Funding History: The first row of Table 8 shows capital improvements and operation and maintenance
           expenditures for the hydropower program over the past three-year period.

           Performance Indicator: The program’s objective is to maintain a high level of reliability and peak availability
           of hydroelectric power-generating capability at multipurpose reservoir projects. The performance indicators
           listed below are used to measure progress in attaining this objective. Performance indicator results and targets
           for the year are displayed in Table 8.

           ¨	 Percent of time available during periods of peak demand. The amount of time hydroelectric
              generating units are available to the Power Marketing Administration’s interconnected system during daily
              peak-demand periods.

           ¨	 Percent of forced outages. The percent of time generating units are in an “unscheduled” or “unplanned”
              outage status. The lower the forced outage rate, the more reliable, and less expensive, the electrical power
              provided to the customer.

           The Corps developed new performance measures and began data-gathering in FY 2008. Data will be reported
           as soon as a complete year’s worth of information is available.

           ¨	 Percent of generating capacity that has a major generator- or turbine-related component
              rated in poor condition. Major components include the generator, turbine runner, governor,
              transformer, circuit breaker, exciter, compressed air system, emergency closure gates and valves, surge
              arresters and batteries. The long-term goal is to reduce generating capacity rated as “poor” to less than 10
              percent over the next 10 years. Equipment condition assessments will be performed by the hydroAMP
              (Hydropower Asset Management Partnership) Condition Assessment tool.

           ¨	 Hydropower plant O&M reviews. Each year, a number of hydropower facilities undergo an annual




                                                                                                                              Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
              power O&M review. This target is measured as a percentage of the total number of reviews completed for
              facilities that require a review.

           ¨	 Operation and maintenance costs for power. The Corps is a member of the Electric Utilities
              Cost Group (EUCG) Benchmarking Consortium, which consists of hydropower producers from across
              the industry. EUCG benchmarking data are used to produce annual benchmarking reports for the O&M
              cost of power production. The target is that O&M costs not increase annually beyond the five-year rolling
              average, plus or minus 5 percent.

           ¨	 Electrical reliability standards met. The percent of Federal Energy Regulatory Commission (FERC)
              and the National Electric Reliability Council-approved electric reliability standards that are met or
              exceeded by the program. The FERC has no jurisdiction over the Corps’ hydropower program; however,
              the Corps takes reliability seriously and has voluntarily chosen to comply with all applicable FERC
              standards, subject to the availability of resources.

Performance data for these new performance indicators were originally anticipated in FY2008; however, the processes
needed to capture the data for each performance indicator with missing data, were not fully developed by the end of
the 2008 fiscal year. The hydropower program’s electric reliability compliance plan is still under review and will be
implemented in the first half of FY 2009. Costs data for O&M benchmarking will always lag by one year due to data
availability and annual reporting dates. A national project delivery team to perform hydropower O&M power reviews




                                                                25
was not established, as intended, in FY 2008. A draft program management plan for power reviews in FY 2009 is
under consideration. Condition assessments of all major generating components were not completed in FY 2008. The
hydropower program’s condition assessment tool was utilized on only some components for which funds were requested.
Historical and/or current period data for each of these performance indicators will be provided in the FY 2009 annual
report.


Performance Results
Table 8 shows an increase in FY 2008 funding for the hydropower program. Approximately 40 percent of appropriations
planned for the hydropower program did not go toward performance improvements, e.g., replacements or reduction in
backlog maintenance. Instead, funds were used to mitigate impacts on endangered fish species in the Pacific Northwest.
The percent of time hydropower generating units were actually available to produce power essentially remained the same
as the previous year. The same is true for the percent of time units were available during peak power-demand periods. The
margin between these two performance indicators has decreased steadily over the historical period. As the margin between
availability and peak availability narrows, system maintenance and operating costs increase. The industry standards for
availability and peak availability are 98 and 95 percent, respectively. Table 8 shows program performance for availability and
peak availability to be approximately 12 and 8 percentage points below the industry standard, respectively, for FY 2008.
The hydropower program standard metric used for forced outages is 2 percent primarily because of funding constraints.
The program’s forced outage performance is 3.1 percentage points above the standard, and 1.6 percentage points above the
FY 2008 target.

                                                   Table 8 – Hydropower Indicators

                                                                                                                        FY 2008
                                                            FY 2005           FY 2006         FY 2007            Target           Actual
 Funding history in millions of dollars                       $285             $288             $228             $264              $237
 Percent of time units are available                        84.54%            86.95%           84.35%             85%            85.73%
 Percent of time available during periods of
 peak demand                                                87.24%            88.69%           84.26%             85%            86.77%
 Percent of time units are out of service due to
 unplanned outage                                            4.66%            3.73%            4.67%            4.55%             5.08%

Recreation
             Objective: To provide justified outdoor recreation opportunities in an effective and efficient manner at all Corps-operated water

             resources projects.


             Objective: To provide continued outdoor recreation opportunities to meet the needs of present and future generations.


             Objective: To provide a safe and healthful outdoor recreation environment for Corps’ customers.


             Funding History: The first row of Table 9 shows the funding for the recreation program.

             Performance Indicators: The measures listed inTable 9 serve as indicators to assist Corps personnel
             to determine progress in meeting the Corps’ recreation efficiency, service and availability objectives. The
             indicators are explained on the following page.




Civil Works Fund                                                         26
               ¨	 Total NED benefits. NED benefits are estimated using the unit day-value method, which was originally
                  developed by the Water Resources Council.2
               ¨	 Benefit-to-cost ratio. This is the ratio of NED benefits to actual program expenditures or budget.

               ¨	 Cost recovery. Measures the percent of total recreation receipts to the recreation budget.

               ¨	 Park capacity. Measures the capacity of facilities to provide recreation opportunities, expressed in
                  millions of days/nights recreation units were available for use.

               ¨	 Number of visitors. Total number of visitors to Corps-managed parks, expressed in millions of people.

               ¨	 Visitor health and safety services. This measure is expressed as a percentage of visitors to Corps-
                  managed recreation areas who reported acceptable service. (Formerly titled, Customer Satisfaction, this
                  measure has been revised to focus on the visitor’s experience related to service as opposed to the condition
                  of the facility. A separate measure, referencing visitor centers, is no longer used; visitor centers are a
                  component of the recreation area.)

               ¨	 Facility service. This measure is the percentage of visitors served at a Corps-managed recreation area
                  with a facility condition score of 4 or better, who indicate their experience was “fair to good.” (Formerly
                  titled, Facility Conditions, this measure was renamed and slightly modified to emphasize service to the
                  public. The quality of a visitor’s experience and satisfaction with Corps’ facilities are directly related to the
                  facility condition.)

Performance Results
Funding for the program decreased in inflation-adjusted terms from FY 2007 to FY 2008. As a result, most performance
measures declined or, at best, remained the same. While visits remained essentially unchanged at 2,476 Corps-managed
parks, there was a resulting loss in over $33 million in NED benefits. Only 49 percent of people who visited Corps parks
were served at acceptable service levels.




                                                                                                                                                                Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
In order to mitigate the results of reduced funding, the Corps has maintained a two-part strategy consisting of: 1) reduced-
service levels, and 2) reduced recreation opportunities caused by the partial or complete closing of parks. With increasing
demand, the Corps has resorted to reductions in contract services and daily operating hours, as well as shortened recreation
seasons. A survey of operations project managers disclosed 59 partial-season closures, and 15 full closures, program-wide,
during this fiscal year.




2
 NED benefits arising from recreation experiences are measured in terms of willingness to pay for each increment of supply or type of recreation opportunity.
The unit-day-value method relies on expert or informed opinion and judgment to approximate the average user’s willingness to pay for federal or federally-
assisted recreation resources. The unit-day-value is estimated at the park (recreation area) level by evaluating each park according to a set of published
criteria. By applying a carefully thought-out and adjusted unit-day-value to estimated use, an approximation can be obtained for use as an estimate of
project recreation benefit (i.e., NED benefits = Unit Day Value X Recreation Use in Visitor Days).




                                                                        27
                                                  Table 9 – Recreation Indicators


                                                                                                                      FY 2008
                                                          FY 2005           FY 2006         FY 2007           Target          Actual
 Funding history in millions of dollars                     $292             $291             $299            $267              $266
 Total NED benefits (in millions of dollars)               $1,243           $1,271           $1,353          $1,126           $1,320
 Benefit-to-cost ratio                                       4.25            4.46             4.49             4.22             4.47
 Cost recovery                                              16%              16%              16%              16%              16%
 Park capacity (in millions of days)                          74              74               74               74               74
 Number of visitors (in millions of visits)                  133              131             132              132              132
 Visitor health and safety services                         51%              50%              50%              49%              49%
 Facility service                                           48%              48%              48%              48%              48%

Water Supply
            Objective: To provide water supply storage in a cost-efficient and environmentally responsible manner, in partnership with non-
            federal water management plans, consistent with law and policy.

            Funding History: The first row of Table 10 displays funding for the water supply program.

            Performance Indicator: To assist in gauging progress toward this objective, the Corps uses measures
            relating to the acre-feet of water stored and cost-recovery measures. These are shown in Table 10.

            ¨ Acre-feet available. Of the total acre-feet of water stored in a reservoir, this number represents the
              total acre-feet available for water supply.

            ¨ Acre-feet under contract. Of the acre-feet available for water supply, this number represents the total
              number of acre-feet under contract with state and local interests.

            ¨ Percentage under contract. The percentage of the acre-feet of water supply storage space under
              contract compared to the acre-feet of space available for water storage.

            ¨ Cost available for recovery. The Corps seeks proportional reimbursement of capital cost for that
              portion of the reservoir allocated for water supply. Cost available for recovery is the total estimated capital
              cost of water supply allocations.

            ¨ Cost recovered. Costs assigned to the water supply storage space that has been, or is, in the process of
              being recovered through repayment agreements.

            ¨ Percent of cost recovered. The percentage of cost available for recovery compared to cost recovered.

            The Corps developed the following performance indicators at the end of FY 2007.

            ¨ Administrative yearly cost. Annual cost to collect fees and administer contracts.

            ¨ Administrative yearly cost (input) per acre-foot of storage (output). This efficiency measure
              describes the cost to provide water storage.




Civil Works Fund                                                       28
Performance Results
The current funding level provides the minimum amount necessary to continue the water supply program on a caretaker
basis. It does not commit the funds required to generate the benefits that could be produced with adequate funding. For
example, funds are not available to conduct required sedimentation surveys; yield analysis studies to assess the effect of
recent droughts; or, studies of water supply reallocation possibilities. These studies would help solve the water supply needs
in many communities across the nation.

                                                      Table 10 – Acre-Feet of Water Supply

                                                                                                                                        FY 2008
                                                                        FY 2005           FY 2006           FY 2007              Target       Actual
 Funding history in millions of dollars                                       $2              $2               $2.5               $4              $3
 Acre-feet available (in millions of acre-feet)                           9.761             9.936             9.379               9.6             9.2
 Acre-feet under contract (in millions of acre-feet)                      9.356             9.936             9.083               9.4             8.9
 Percent under contract                                                   95.9%            94.5%             96.8%              96.9%         96.7%
 Costs available for recovery (in millions of dollars)                  $1,459.8          $1,492.9          $1,282.3            $1,300.0     $1,285.2
 Costs recovered (in millions of dollars)                               $1,096.1          $1,117.9           $868.4             $910.0        $933.2
 Percent recovered                                                        75.0%            74.9%             67.8%              70.0%         72.2%
 Administrative yearly cost (in millions of dollars)                                                                             $1.3             $1.2
 Administrative yearly cost per acre-foot of                                               Note 1
 storage                                                                                                                         $0.14        $0.13
Note 1: These efficiencies measures were established at the end of FY 2007; FY2008 is the first year that data are available.



Goal 4: 	 Reduce Vulnerabilities and Losses to the Nation and the Army from Natural and Man-
          Made Disasters, Including Terrorism
          The goal’s purpose is to manage the risks associated with all types of hazards, and to increase the civil works
          emergency management program’s responsiveness to disasters in support of federal, state and local emergency




                                                                                                                                                         Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
          management efforts. Disaster preparedness and response capabilities are not limited to water-related events,
          but also draw on the Corps’ engineering skills and management capabilities in responding to a broad range
          of natural disasters and national emergencies. The Corps is mindful that emergency readiness contributes to
          national security.

              Objective: To attain and maintain a high, consistent state of preparedness.

              Objective: To provide a rapid, effective and efficient all-hazards response.

              Objective: To ensure effective and efficient long-term recovery operations.

              Funding History: The first row of Table 11 shows the funding for emergency preparedness and response and
              recovery operations.

              Performance Indicators: The four primary measures, listed in Table 11, are indicators to assist Corps
              personnel in determining progress toward meeting the Corps’ emergency management objectives. Indicators
              are explained below.

               ¨	 Planning response team readiness. The Corps established designated planning and response teams
                  (PRT) that are organized to provide rapid emergency response within a specific mission area. This measure




                                                                         29
                is calculated as a percentage of time during the fiscal year that PRTs are fully staffed, trained and ready to
                deploy.

            ¨	 Project inspection performance. The Corps performs inspections of flood control works operated
               and maintained by public sponsors to ensure and assess their operations and maintenance condition. This
               measure is determined by the percentage of scheduled inspections completed during the fiscal year.

            ¨	 Damaged project restoration. The Corps repairs flood control projects damaged by floods or storms
               under authority of Public Law 84-99. This measure is determined by the percentage of projects damaged
               during a fiscal year, and that are repaired prior to the next flood season.

            ¨	 Project condition ratings. Under the Corps’ rehabilitation and inspection program, inspected projects
               are given condition ratings that characterize their state of maintenance. This measure is determined by the
               percentage of the total projects inspected during the fiscal year that received a rating of at least “minimally
               acceptable.”

Performance Results
During FY 2008, the Corps maintained 41 national planning and response teams (PRT) at a readiness rate of 94 percent
fully manned, trained and equipped. These teams are trained and prepared to deploy to a disaster area and provide
assistance for temporary power, temporary housing, debris management, water and ice commodities, temporary roofing
and infrastructure assessment. The readiness rating exceeded the target rating due to increased focus on team training and
team reorganization for more efficient disaster response.

The Corps implemented several new initiatives to improve response and recovery activities under the National Response
Framework. Initiatives included the establishment of national commodities PRTs to manage the planning and delivery of
ice, water and meals ready-to-eat to disaster victims in a timely manner. Additionally, the Corps integrated its housing PRTs
into FEMA’s Individual Assistance-Technical Assistance Contract Branch to better provide the engineering and construction
management support needed for effective interim housing solutions for disaster victims. The Corps also awarded new
Advanced Contract Initiative contracts for debris removal,These contracts include a small business component, which
allows the Corps to better tailor contracts to leverage the capabilities and agility of small businesses in a disaster area.

During FY 2008, the Corps conducted 71 percent (total of 371) of the scheduled inspections of flood damage reduction
projects. Performance below the target objective resulted from the application of more technically rigorous inspections,
which limited the number of scheduled inspections that could be conducted. Of the total projects inspected, 86 percent
received project condition ratings of “minimally acceptable” or better. Major flooding in the Midwest resulted in damages
to 82 projects in Iowa, Illinois, Indiana, Missouri, Nebraska and Arkansas. Continued high water in the Midwest due to
Hurricanes Gustav and Ike has prevented expeditious repair of the damaged projects. As of the printing of this report,
investigation and engineering and design are ongoing for all the projects; interim repairs to close breaches have been
completed on three critical projects.

Overall, the Corps achieved an 85 percent performance rating for the completion of project repairs prior to the next flood
season. Repairs for all damaged projects have been funded, and construction will be completed during the fall and winter
of 2008, prior to the spring flood season.

In response to the severe flooding in the Midwest, the Corps created a Regional Interagency Levee Task Force, which
establishes an interagency partnership with regional federal, state and local agencies in the flood-impacted areas. Its mission
is to expedite and evaluate levee repairs and, where applicable, provide nonstructural solutions to reduce future flood risks
and improve coordination of floodplain management.




Civil Works Fund                                                  30
                                              Table 11 – Emergency Preparedness Indicators

                                                                                                                                 FY 2008
                                                            FY 2005           FY 2006             FY 2007               Target             Actual
                                                             Note 1            Note 1              Note 1               Note 2             Note 1
 Funding history in millions of dollars                       $348             $5,408              $1,561                $32               $847
 Planning response team readiness                             82%               92%                 72%                 70%                94%
 Project inspection performance                               96%               93%                 97%                 80%                71%
 Damaged project restoration                                  75%               65%                 29%                 20%                85%
 Project condition ratings                                    94%               95%                 90%                 80%                86%
Note 1: Funding was provided in supplemental appropriations to repair projects damaged by coastal storm and flooding.

Note 2: The funding target for FY 2008 was to fund preparedness activities.



Possible Future Effects of Existing Conditions
Flood Risk Management
The program’s goal is to reduce the nation’s risk of damages due to flooding and coastal storms. The nation faces increasing
flood hazards, putting existing developments at risk. This is compounded by the fact that new development is occurring
in flood-prone areas, often behind aging flood-control structures, which include levees designed to provide agricultural
rather than urban protection. National flood damages, which averaged $3.9 million annually in the 1980s, nearly doubled
in the decade 1995 through- 2004. Total disaster assistance for emergency response operations, and subsequent long-term
recovery efforts, increased from an average of $444 million during the 1980s to $3.75 billion over the period1995 – 2004.

Significant investments are required to identify, evaluate, and maintain existing flood infrastructure (e.g., levees, dams,
beaches). This includes accounting for changes in the frequency, magnitude and location of storms, as well as changes in
land use. The Corps is responsible for maintaining some of this infrastructure, while other entities are responsible for the
remaining infrastructure. Regardless of ownership, all infrastructure elements must function as a holistic system to be




                                                                                                                                                    Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
effective. In addition to infrastructure maintenance, new flood-risk management measures must be studied, evaluated and
implemented in a timely fashion.


The Marine Transportation System (MTS)
The MTS system is comprised of 1,000 harbor channels; 25,000 miles of inland, intracoastal and coastal waterways; and
241 lock chambers. The national goal for the MTS is to provide a safe, secure and globally integrated network that, in
harmony with the environment, ensures reliable movement of people and commerce along its waterways, sea lanes and
intermodal connections. Today, approximately 20 percent of the gross domestic product of the United States is generated
by foreign trade, and approximately 95 percent of that trade is moved by water. The value of the foreign tonnage is over
$900 billion and generates 16 million jobs. Current forecasts predict that maritime trade will double, or possibly triple, in
the next 20 years.

Inland Waterways: Eleven inland waterway locks are over 100 years old, and 122 are over 50 years old. In recent years,
maintenance deferrals and delays in repairs and replacement of aging locks have driven up unscheduled lock closures. For
example, closures due to mechanical breakdowns increased from 9,100 hours per year in FY 2000 to 27,100 hours per
year in FY 2007. These closures have a negative effect on the economy by imposing costs on shippers, carriers and electric
utilities. For example, an unscheduled 52-day closure at Greenup Locks and Dams in Ohio, cost shippers and carriers over
$53 million. Additionally, improvements to inland waterways are jeopardized by the low balance in the InlandWaterways
Trust Fund because half of the cost of such improvements must come from this fund.



                                                                       31
Coastal Channels and Harbors: Existing high-volume channels and harbors were available only 35 percent of the time
in FY 2006 and 32 percent of the time in FY 2007. Inadequate channels affect the economy by imposing costs on vessel
operators that, in turn, are reflected in the cost of imports and the price of U.S. exports. On average, failure to maintain
one foot of channel depth increases container shipping costs by about 6%. Additional economic costs will accrue by
postponing investment in deeper and wider channels that address projected future demand.


Environment: Aquatic Ecosystem Restoration
The Aquatic Ecosystem Restoration sub-program’s goal is to restore to a more natural condition, aquatic habitat whose
structure, function and dynamic processes have become degraded. To achieve its objectives, the Corps designs and
constructs projects that modify, in a cost-effective manner, hydrologic and geomorphic characteristics.

The call for aquatic ecosystem restoration is great; however, the challenge is to strike a sustainable balance between the
often conflicting demands for use, and control, of water resources. In FY 2008, the Corps continued its research and
development effort to field environmental benefit assessments that more objectively evaluate aquatic ecosystem restoration
projects. This will facilitate more consistent results and the ability to effectively build and evaluate a national program.
Until a standard metric is developed, the Corps will continue to work with other agencies and invest in research and
development to more objectively evaluate disparate ecosystem restoration projects and prioritize restoration needs. The
Corps continues to try to fund a balanced program that addresses the variety of resources needed across the country.

Analysis of Financial Statements and Stewardship Information
Civil Works Balance Sheet
The USACE balance sheet includes total assets that exceed $48 billion, which is an approximate 10.8 percent increase over
FY 2007. Two asset categories – Fund Balance with Treasury and General Property, Plant and Equipment – make up just
over 85 percent of total assets, with values of $15.2 billion and $26.9 billion, respectively.

Fund Balance with Treasury increased $4.1 billion (36.5%). The USACE received supplemental appropriations in the
general fund on June 30, 2008, in the amount of $606 million and on September 30, 2008, in the amount of $2.8 billion.
The latter was used for increased disaster relief and recovery efforts related to hurricanes, floods, and other natural disasters
along the Gulf of Mexico.

Liabilities are approximately $4.9 billion, comprised primarily of other liabilities, accounts payable and environmental
liabilities, which represent approximately 94.6 percent of the total.




Civil Works Fund                                                  32
                                    Figure 4 – Select Civil Works Fund Assets and Liabilities

 (Amounts in billions)

                                                     2008              2007                                Percentage of
 Asset Type                                       Consolidated      Consolidated         Change            FY 2008 Assets
 General Property, Plant and Equipment            $        26.61 $           26.73   $          (.12)            54.78%
 Fund Balance with Treasury                                15.24             11.17              4.07             31.37%
 Accounts Receivable                                        1.82              2.52              (.70)            3.75%
 Remaining Assets                                           4.91              4.16              0.75             10.11%
 Total Assets                                     $        48.58 $           44.58   $          4.81             100%


                                                     2008              2007                                 Percentage of
 Liability Type                                   Consolidated      Consolidated         Change           FY 2008 Liabilities
 Due to Treasury                                  $         0.90 $            1.61   $          (.71)            16.22%
 Other Liabilities                                          2.16              0.85              1.31             38.92%
 Accounts Payable                                           1.24              0.97               .27             22.34%
 Environmental Liabilities                                  0.98              0.66              0.32             17.66%
 Remaining Liability                                         .27              0.26              .001             4.86%
 Total Liabilities                                $         5.55 $            4.35   $          1.20             100%



                                    Figure 5 – Select Civil Works Fund Assets and Liabilities
                                                                                                4.86%
3.75%
                         10.11%                                                                         16.22%
                                                                              17.66%
    31.37%                                        54.78%
                                                                         22.34%                                    38.92%




                                                                                                                                Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
                Civil Works Fund Assets                                        Civil Works Fund Liabilities
                   General Property, Plant and Equipment                             Due to Treasury
                   Fund Balance with Treasury                                        Other Liabilities
                   Accounts Receivable                                               Accounts Payable
                   Remaining Assets                                                  Environmental Liabilities
                                                                                     Remaining Liability

Stewardship Information
The current national register inventory for the USACE lists 97 archeological properties and 489 archeological properties
determined eligible for listing. There are 117 buildings and structures listed on the national register and 236 determined
eligible for listing.




                                                           33
Civil Works Fund   34
     Limitations
     Limitations of the Financial Statements
     The financial statements have been prepared to report
     the financial position and results of operations for the
     entity, pursuant to the requirements of Title 31, United
     States Code, section 3515(b).

     While the statements have been prepared from the
     books and records of the entity, in accordance with
     the formats prescribed by the Office of Management
     and Budget, the statements are in addition to the
     financial reports used to monitor and control budgetary
     resources which are prepared from the same books and
     records.

     The statements should be read with the realization
     that they are for a component of the United States
     Government, a sovereign entity.




                                                                Fiscal Year 2008 United States Army Annual Civil Works Financial Statement




35
 Department of Defense - U.S. Army Corps of Engineers - Civil Works

 CONSOLIDATED BALANCE SHEET
 For the years ended September 30, 2008 and 2007 (Amounts in thousands)                2008 Consolidated             2007 Consolidated
 ASSETS (Note 2)
 Intragovernmental:
       Fund Balance with Treasury (Notes 1.V. & 3)                                 $             15,235,393      $              11,165,472
       Investments (Note 4)                                                                       4,789,604                      4,038,353
       Accounts Receivable (Notes 1.V. & 5)                                                         881,283                       873,119
       Total Intragovernmental Assets                                              $             20,906,280      $              16,076,944


 Cash and Other Monetary Assets (Note 6)                                           $                       121   $                   1,371
 Accounts Receivable, Net (Note 5)                                                                  940,308                      1,644,574
 Inventory and Related Property, Net (Notes 1.V. & 7)                                               126,665                       121,704
 General Property, Plant and Equipment, Net (Notes 1.V. & 8)                                     26,614,893                     26,734,595
 Other Assets (Note 1.O.)                                                                                  663                           494
 TOTAL ASSETS                                                                      $             48,588,930      $              44,579,682


 Stewardship PP&E (Note 9)


 LIABILITIES (Note 10)
 Intragovernmental:
       Accounts Payable (Notes 1.V. & 1.W.)                                        $                302,141      $                128,411
       Debt (Note 11)                                                                                12,130                        12,917
       Due to Treasury - General Fund (Note 13)                                                     900,089                      1,617,061
       Other Liabilities (Notes 13 & 14)                                                            757,948                       257,462
       Total Intragovernmental Liabilities                                         $              1,972,308      $               2,015,851


 Accounts Payable - Public (Note 1.V.)                                             $                934,993      $                839,715
 Federal Employee and Veterans' Benefits (Note 10)                                                  253,651                       251,887
 Environmental and Disposal Liabilities (Note 12)                                                   982,112                       656,123
 Other Liabilities (Notes 1.V., 13 & 14)                                                          1,403,270                       588,926
 TOTAL LIABILITIES                                                                 $              5,546,334      $               4,352,502


 Commitments and Contingencies (Note 14)


 NET POSITION
 Unexpended Appropriations - Other Funds (Note 1.V.)                                             10,316,712                      8,336,552
 Cumulative Results of Operations - Earmarked Funds (Note 19)                                     7,583,975                      6,129,552
 Cumulative Results of Operations - Other Funds (Note 1.V.)                                      25,141,909                     25,761,076
 TOTAL NET POSITION                                                                $             43,042,596      $              40,227,180


 TOTAL LIABILITIES AND NET POSITION                                                $             48,588,930      $              44,579,682


 The accompanying notes are an integral part of these financial statements.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information           36
Department of Defense - U.S. Army Corps of Engineers - Civil Works

CONSOLIDATED STATEMENT OF NET COST
For the years ended September 30, 2008 and 2007 (Amounts in thousands)           2008 Consolidated            2007 Consolidated
Program Costs
Gross Costs (Note 15)                                                        $               9,521,316    $               8,615,546
(Less: Earned Revenue)                                                                      (2,201,151)                  (3,445,687)
Net Program Costs                                                            $               7,320,165    $               5,169,859
Net Cost of Operations                                                       $               7,320,165    $               5,169,859


The accompanying notes are an integral part of these financial statements.




                                                                                                                                       Fiscal Year 2008 United States Army Annual Civil Works Financial Statement




                                                                    37
 Department of Defense - U.S. Army Corps of Engineers - Civil Works

 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                                       2008 Earmarked           2008 All Other
 For the years ended September 30, 2008 and 2007 (Amounts in thousands)                     Funds                  Funds             2008 Consolidated

 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                                                $         6,310,601      $       25,580,027        $     31,890,628
 Prior Period Adjustments:
       Changes in accounting principles (Note 1.V.)                                                     0                        0                       0
 Beginning balances, as adjusted                                                             6,310,601              25,580,027              31,890,628
 Budgetary Financing Sources:
       Appropriations used                                                                              0            6,031,859                6,031,859
       Nonexchange revenue                                                                   1,781,742                   12,741               1,794,483
       Transfers-in/out without reimbursement                                                 (722,457)                881,449                 158,992
 Other Financing Sources (Non-exchange):
       Donations and forfeitures of property                                                            0                   320                     320
       Transfers-in/out without reimbursement                                                 (424,079)                349,148                 (74,931)
       Imputed financing from costs absorbed by others                                                  0              244,698                 244,698
 Total Financing Sources                                                           $           635,206      $        7,520,215        $       8,155,421
 Net Cost of Operations                                                                        638,406               6,681,759               7,320,165
 Net Change                                                                        $            (3,200)     $          838,456        $        835,256
 Cumulative Results of Operations                                                  $         6,307,401      $       26,418,483        $     32,725,884


 UNEXPENDED APPROPRIATIONS
 Beginning Balances                                                                $                    0   $        8,336,552        $      8,336,552
 Prior Period Adjustments:
       Changes in accounting principles (Note 1.V.)                                                     0                        0                       0
 Beginning balances, as adjusted                                                   $                    0   $        8,336,552        $      8,336,552
 Budgetary Financing Sources:
       Appropriations received                                                                          0            8,004,306               8,004,306
       Appropriations transferred-in/out                                                                0                12,500                  12,500
       Other adjustments (rescissions, etc.)                                                            0                (4,787)                 (4,787)
       Appropriations used                                                                              0           (6,031,859)             (6,031,859)
 Total Budgetary Financing Sources                                                 $                    0   $        1,980,160        $      1,980,160
 Unexpended Appropriations                                                                              0           10,316,712              10,316,712
 Net Position                                                                      $         6,307,401      $       36,735,195        $     43,042,596


 The accompanying notes are an integral part of these financial statements.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information           38
Department of Defense - U.S. Army Corps of Engineers - Civil Works

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                                 2007 Earmarked           2007 All Other
For the years ended September 30, 2008 and 2007 (Amounts in thousands)                Funds                  Funds           2007 Consolidated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                           $         5,380,665      $       25,574,715      $     30,955,380
Prior Period Adjustments:
     Changes in accounting principles (Note 1.V.)                                                 0             (450,381)             (450,381)
Beginning balances, as adjusted                                                        5,380,665              25,124,334            30,504,999
Budgetary Financing Sources:
     Appropriations used                                                                          0            4,540,018              4,540,018
     Nonexchange revenue                                                               1,590,272                     (239)            1,590,033
     Transfers-in/out without reimbursement                                               16,503                 111,960               128,463
Other Financing Sources (Non-exchange):
     Donations and forfeitures of property                                                        0                11,105                11,105
     Transfers-in/out without reimbursement                                              256,145                (232,606)                23,539
     Imputed financing from costs absorbed by others                                              0              262,330               262,330
Total Financing Sources                                                      $         1,862,920      $        4,692,568      $      6,555,488
Net Cost of Operations                                                                   932,984               4,236,875             5,169,859
Net Change                                                                   $           929,936      $          455,693      $      1,385,629
Cumulative Results of Operations                                             $         6,310,601      $       25,580,027      $     31,890,628


UNEXPENDED APPROPRIATIONS
Beginning Balances                                                           $                    0   $        7,046,853      $      7,046,853
Prior Period Adjustments:
     Changes in accounting principles (Note 1.V.)                                                 0              (35,335)              (35,335)




                                                                                                                                                   Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
Beginning balances, as adjusted                                              $                    0   $        7,011,518      $      7,011,518
Budgetary Financing Sources:
     Appropriations received                                                                      0            5,865,443             5,865,443
     Appropriations transferred-in/out                                                            0                  (334)                (334)
     Other adjustments (rescissions, etc.)                                                        0                   (57)                  (57)
     Appropriations used                                                                          0           (4,540,018)           (4,540,018)
Total Budgetary Financing Sources                                            $                    0   $        1,325,034      $      1,325,034
Unexpended Appropriations                                                                         0            8,336,552             8,336,552
Net Position                                                                 $         6,310,601      $       33,916,579      $     40,227,180


The accompanying notes are an integral part of these financial statements.




                                                                    39
 Department of Defense - U.S. Army Corps of Engineers - Civil Works

 COMBINED STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2008 and 2007 (Amounts in thousands)                2008 Combined               2007 Combined
 BUDGETARY FINANCING ACCOUNTS
 Unobligated balance, brought forward, October 1                                   $             9,902,226     $             9,445,339
 Recoveries of prior year unpaid obligations                                                       621,715                     491,474
 Budget authority
      Appropriation                                                                              9,566,609                   7,503,579
      Spending authority from offsetting collections
          Earned
             Collected                                                                           9,766,479                  10,417,319
             Change in receivables from Federal sources                                            (33,018)                 (1,792,986)
          Change in unfilled customer orders
             Advance received                                                                      596,564                      (20,162)
             Without advance from Federal sources                                                1,314,780                    (491,895)
          Expenditure transfers from trust funds                                                   766,000                            0
      Subtotal                                                                     $            21,977,414     $            15,615,855
 Nonexpenditure transfers, net, anticipated and actual                                             182,838                       78,583
 Temporarily not available pursuant to Public Law                                                  (10,000)                     (10,000)
  Permanently not available                                                                          (5,575)                       (732)
 Total Budgetary Resources                                                         $            32,668,618     $            25,620,519

 Status of Budgetary Resources:
 Obligations incurred:
      Direct                                                                       $             9,336,767     $             7,281,595
      Reimbursable                                                                              11,639,134                   8,436,698
      Subtotal                                                                     $            20,975,901     $            15,718,293
 Unobligated balance:
      Apportioned                                                                               10,483,144                   8,954,424
      Exempt from apportionment                                                                    998,075                     937,561
      Subtotal                                                                     $            11,481,219     $             9,891,985
 Unobligated balance not available                                                                 211,498                      10,241
 Total status of budgetary resources                                               $            32,668,618     $            25,620,519
 Change in Obligated Balance:
 Obligated balance, net
      Unpaid obligations, brought forward, October 1                               $             5,791,649     $             5,401,044
      Less: Uncollected customer payments                                                       (4,136,258)                 (6,421,138)
      from Federal sources, brought forward, October 1
      Total unpaid obligated balance                                               $              1,655,391    $             (1,020,094)
 Obligations incurred net                                                          $            20,975,901     $            15,718,293
 Less: Gross outlays                                                                           (16,752,941)                (14,836,212)
 Less: Recoveries of prior year unpaid obligations, actual                                         (621,715)                   (491,474)
 Change in uncollected customer payments from Federal sources                      $             (1,281,760)   $              2,284,881
 Obligated balance, net, end of period
      Unpaid obligations                                                                         9,392,894                   5,791,649
      Less: Uncollected customer payments from Federal sources                                  (5,418,018)                 (4,136,258)
      Total, unpaid obligated balance, net, end of period                          $             3,974,876     $             1,655,391

 Net Outlays:
      Gross outlays                                                                $            16,752,941     $            14,836,212
      Less: Offsetting collections                                                             (11,129,045)                (10,397,157)
      Less: Distributed Offsetting receipts                                        $              (638,940)    $              (521,925)
 Net Outlays                                                                                     4,984,956                   3,917,130

 The accompanying notes are an integral part of these financial statements.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information           40
Note 1.       Significant Accounting Policies

1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the U.S.Army
Corps of Engineers CivilWorks Program (USACE), as required by the Chief Financial Officers Act of 1990, expanded
by the Government Management Reform Act of 1994, and other appropriate legislation. The financial statements have
been prepared from the books and records of USACE in accordance with the Department of Defense (DoD) Financial
Management Regulation (FMR), Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements,
and generally accepted accounting principles (GAAP). The accompanying financial statements account for all CivilWorks
resources for which USACE is responsible.

USACE’s financial statements are prepared from the consolidation of general ledger financial data reported from the Corps
of Engineers Financial Management System (CEFMS) to the Corps of Engineers Enterprise Management Information
System (CEEMIS). The financial statements are presented on the accrual basis of accounting as required by GAAP.


1.B. Mission of the Reporting Entity
The primary mission of USACE includes maintaining navigation channels, reducing flooding, assisting during natural
disasters and other emergencies, and making waterways passable. The CivilWorks Program also supports the Department
of Homeland Security in carrying out the National Response Plan. USACE’s primary role in support of this plan is to
provide emergency support in areas of public works and engineering. USACE responds to more than 30 presidential
disaster declarations in a typical year, and its highly trained workforce is prepared to deal with both man-made and natural
disasters.


1.C. Appropriations and Funds
USACE CivilWorks Program receives federal funding through the annual Energy andWater Development Appropriations
Act. Program funding also comes from nonfederal project sponsors who share in project costs according to formulas
established by project authorization acts. A third source of funding comes through the Support for Others Program, which




                                                                                                                               Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
is conducted under reimbursable agreements with federal agencies.

USACE Civil Works Program receives its appropriations and funds as general, revolving, trust, special, and deposit funds.
USACE uses these appropriations and funds to execute its mission and subsequently report on resource usage.

General funds are used for financial transactions funded by Congressional appropriations, including personnel, operation
and maintenance, research and development, procurement, and construction accounts.

Revolving funds received funding to establish an initial corpus through an appropriation or a transfer of resources from
existing appropriations or funds. The corpus finances operations and transactions that flow through the fund. The revolving
fund resources the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable
receipts fund future operations and generally are available in their entirety for use without further congressional action.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Certain trust and special
funds may be designated as earmarked funds. Earmarked funds are financed by specifically identified revenues, required
by statute to be used for designated activities, benefits or purposes, and remain available over time. Earmarked funds also
have a requirement to account for and report on the receipt, use and retention of revenues and other financing sources that
distinguish them from general revenues.




                                                         41
Special fund accounts are used to record government receipts reserved for a specific purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity.
USACE is acting as an agent or a custodian for funds awaiting distribution.

USACE received borrowing authority from the U.S.Treasury to finance capital improvements to the Washington Aqueduct.

The asset accounts used to prepare the principal financial statements are categorized as entity/nonentity. Entity accounts
consist of resources that the agency has the authority to use, or where management is legally obligated to use funds to
meet entity obligations. Nonentity accounts consist of resources for which USACE maintains stewardship accountability
and responsibility to report but are not available for USACE operations. A summary of the entity and nonentity accounts
follows:


Entity Accounts:

General Funds
96X3112     Flood Control, Mississippi River and Tributaries
96X3121     Investigations
96 3121     Investigations (fiscal year)
96X3122     Construction
96X3123     Operation and Maintenance, General
96 3123     Operation and Maintenance, General
96X3124     General Expenses
96 3124     General Expenses
96X3125     Flood Control and Coastal Emergencies
96 3125     Flood Control and Coastal Emergencies
96X3126     Regulatory Program
96X3128     Washington Aqueduct Capital Improvements
96 3129     Payment to the South DakotaTerrestrialWildlife Habitat RestorationTrust Fund
96X3130     Formerly Utilized Sites Remedial Action Program
96 3132     Office of Assistant Secretary of the Army, CivilWorks
96X6094     Advances from the District of Columbia

Revolving Funds
96X4902      Revolving Fund

Special Funds
96X5007       Special Recreation Use Fees
96X5066       Hydraulic Mining in California, Debris
96X5090       Payments to States, Flood Control Act of 1954
96X5125       Maintenance and Operation of Dams and Other Improvements of Navigable Waters
96X5493       Fund for Non-Federal Use of Disposal Facilities
96 5493       Fund for Non-Federal Use of Disposal Facilities

Trust Funds
96X8217     South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X8333     Coastal Wetlands Restoration Trust Fund
96 20X8861 Inland Waterways Trust Fund



Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   42
96X8862        Rivers and Harbors Contributed and Advance Funds
96 20X8863     Harbor Maintenance Trust Fund
96 89X4045     Bonneville Power Administration Fund, Power Marketing Administration, Department of Energy

Transfer Funds (Reported by the Parent)
96 12X1105 State and Private Forestry, Forest Service
96 14X1039 Construction, National Park Service
96 14X5035 Land Acquisition and State Assistance, National Park Service
96 14X5573 Permit Processing Fund, Bureau of Land Management
96 46X0200 Appalachian Regional Development Programs,Appalachian Regional Commission
96 69X8083 Federal - Aid Highways (Liquidation of Contract Authorization), Federal Highways Administration
96 89X4045 Bonneville Power Administration Fund, Power Marketing Administration, Department of Energy


Nonentity Accounts:

Deposit Funds
96X6500     Advances Without Orders from Non-Federal Sources
96X6501     Small Escrow Amounts


Clearing Accounts
96F3875      Budget Clearing Account (suspense)
96F3880      Unavailable Check Cancellations and Overpayments (suspense)
96F3885      Undistributed Intragovernmental Payments

Receipt Accounts
96 0891	    Miscellaneous Fees for Regulatory and Judicial Services, Not Otherwise Classified
96 1060	    Forfeitures of Unclaimed Money and Property




                                                                                                              Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
96 1099	    Fines, Penalties, and Forfeitures, Not Otherwise Classified
96 1299	    Gifts to the United States, Not Otherwise Classified
96 1435	    General Fund Proprietary Interest, Not Otherwise Classified
96 3220	    General Fund Proprietary Receipts, Not Otherwise Classified,All Other
96 5005	    Land and Water Conservation Fund
96 5007	    Special Recreation Use Fees
96 5066	    Hydraulic Mining in California
96 5090	    Receipts from Leases of Lands Acquired for Flood Control, Navigation, and Allied Purposes
96 5125	    Licenses under Federal Power Act, Improvements of NavigableWaters, Maintenance and Operation of
            Dams, etc., (50%)
96 5493	    User Fees, Fund for Non-Federal Use of Disposal Facilities

Obsolete Accounts
96 13X1450            96 89X0224       96X6145        96F3886        96 1499
96 14X2301            96 20X8145       96X6275        96 0199        96 2413
96 19 00 1082         96X3930          96X6302        96 0869        96 2814
96 47X4542            96X6050          96X6999        96 1030        96 3102
96 67X0204            96X6075          96X8868        96 1040        96 3124
96 72 00/01 1021      96X6134          96F3879        96 1210




                                                    43
1.D. Basis of Accounting
USACE’s financial management system meets all of the requirements for full accrual accounting. USACE transactions are
recorded on an accrual accounting basis as required by GAAP. Under the accrual method, revenues are recognized when
earned and expenses are recognized when a liability is incurred without regard to receipt or payment of cash. Budgetary
accounting is accomplished through unique general ledger accounts to facilitate compliance with legal and internal control
requirements associated with the use of federal funds in accordance with the Treasury Financial Manual.


1.E.     Revenues and Other Financing Sources
USACE receives congressional appropriations as financing sources for general funds on either an annual or multi-year basis.
When authorized by legislation, these appropriations are supplemented by revenues generated by sales of goods or services.
USACE recognizes revenue as a result of costs incurred for goods or services provided to other federal agencies and the
public. Full cost pricing is USACE’s standard policy for goods or services provided as required by OMB Circular A-25,
User Charges.

USACE records two types of revenue: exchange and non-exchange. Exchange revenue is the inflow of resources that
USACE has earned by providing something of value to the public or another Federal entity at a price. The main sources
of exchange revenue are customer orders (reimbursable agreements), cost sharing revenue, and long-term water storage
agreements.

Customer Orders are contracts where USACE provides goods or services under a reimbursable agreement; the related
revenue and accounts receivable are recorded simultaneously along with the costs and payables in CEFMS. For non-federal
entities, an advance payment is required and USACE records deferred revenue for the advance received. USACE reduces
deferred revenue and recognizes revenue as goods or services are provided.

Cost Sharing Revenue arises from agreements under which USACE constructs assets, the cost of which will be borne
in part by another entity (sponsor). Throughout the life of a cost share project, USACE revenue is earned based on the
sponsor’s proportionate share of project costs incurred. Sponsors are generally required to provide funds in advance
accounts. USACE withdraws the sponsor’s cash account, which is an escrow account. Revenue is recognized at the time of
the withdrawal for cost incurred.

Revenue from long-term water storage agreements is based on the cost of construction to be recouped by USACE from
the municipality. Annually, CEFMS recognizes revenue on the agreement, which can be amortized from two to fifty years
depending on the contract specifications.

Non-exchange revenue represents resources received by USACE when a good or service is not provided in exchange for
that revenue. Examples of non-exchange revenue include trust fund receipts, penalties, and donations.


1.F.      Recognition of Expenses
USACE recognizes expenses in the period incurred or consumed. USACE’s expenditures for capital and other long-term
assets are recognized as operating expenses as the assets are depreciated.


1.G. Accounting for Intragovernmental Activities
USACE eliminates transactions within the USACE Civil Works Program in these consolidated financial statements.

The U.S.Treasury Financial Management Service is responsible for eliminating transactions between DoD and other
federal agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   44
Report of the United States Government,” and the U.S.Treasury’s “Federal IntragovernmentalTransactions Accounting
Policy Guide” provide guidance for reporting and reconciling intragovernmental balances. While USACE is unable to
fully reconcile intragovernmental transactions with all federal partners, USACE is able to reconcile fiduciary transaction
balances pertaining to investments in federal securities, borrowings from the U.S.Treasury and the Federal Financing
Bank, Federal Employees’ Compensation Act transactions with the Department of Labor, and benefit program transactions
with OPM. USACE implemented policies and procedures related to reconciling intragovernmental assets, liabilities,
revenues, and expenses for nonfiduciary transactions. Entities whose financial systems are unable to capture and provide
complete, pertinent data limit the degree of intragovernmental reconciliation. USACE is able to fully reconcile with those
entities whose financial systems do have the capability to capture and provide all pertinent information needed for accurate
intragovernmental reconciliation.

USACE’s proportionate share of public debt and related expenses of the Federal Government is not included in its financial
statements. The Federal Government does not apportion debt and its related costs to federal agencies. USACE’s financial
statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements report the
source of public financing whether from issuance of debt or tax revenues.

Financing for the construction of USACE’s facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S.Treasury does not allocate such interest costs to the benefiting agencies.


1.H. Funds with the U.S. Treasury
USACE’s monetary financial resources are maintained in U.S.Treasury accounts. The disbursing offices of the USACE
Finance Center (UFC), the Defense Finance and Accounting Service (DFAS), and the Department of State’s financial
service centers process the majority of USACE’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports that provide information to the U.S.Treasury on check issues, electronic fund
transfers, interagency transfers, and deposits.

In addition, UFC and DFAS sites submit reports to the U.S.Treasury by appropriation on interagency transfers, collections




                                                                                                                               Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
received, and disbursements issued. The U.S.Treasury records this information to the applicable Fund Balance with
Treasury (FBWT) account. Differences between USACE’s recorded balance in FBWT accounts and U.S.Treasury’s FBWT
accounts sometimes result and are subsequently reconciled.


1.I.      Accounts Receivable
Accounts receivable includes three categories: accounts, claims, and refunds receivable from other federal entities or from
the public. USACE bases the allowance for uncollectible accounts receivable due from the public on established percentages
per aged category of the cumulative balance of delinquent public receivables. The calculation and financial transaction
updates are performed automatically in CEFMS. USACE does not recognize an allowance for estimated uncollectible
amounts from other federal agencies. Claims against other federal agencies are resolved between the agencies in accordance
with dispute resolution procedures defined in the Intragovernmental Business Rules published in the Treasury Financial
Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.


1.J.      Inventories and Related Property
USACE inventories are valued at historical cost based on a moving weighted average that is based on actual cost divided by
quantity. A perpetual record of inventory is maintained in CEFMS to allow for recomputation of the average unit cost as
new receipts are recorded. The CEFMS maintains historical cost data necessary to comply with SFFAS No. 3, Accounting for
Inventory and Related Property.




                                                         45
Work in Process (WIP) balances include costs related to the production or servicing of items, including direct material,
direct labor, applied overhead and other direct costs. TheWIP also includes the value of finished products or completed
services that are yet to be placed in service and transferred to an asset account.

Related property includes Operating Materials &Supplies (OM&S). OM&S are valued at moving average cost. USACE
uses the consumption method of accounting for OM&S, as defined in the SFFAS No. 3, as material that has not been issued
to the end user. Once OM&S is issued, the materials and supplies are expensed.


1.K. Investments
USACE reports investments in U.S.Treasury securities at cost, net of amortized premiums or discounts. Premiums
or discounts are amortized over the term of the investment using the effective interest rate method or another method
obtaining similar results. USACE’s intent is to hold investments to maturity, unless they are needed to finance claims or
otherwise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The Bureau of Public Debt (BPD), on behalf of USACE, invests in nonmarketable securities. The two types of
nonmarketable securities are par value and market-based intragovernmental securities. BPD issues nonmarketable par value
intragovernmental securities. Nonmarketable, market-based intragovernmental securities mimic marketable securities, but
are not publicly traded.

USACE’s net investments are held by three trust funds. These funds include South Dakota Terrestrial Habitat Restoration,
Inland Waterways, and Harbor Maintenance trust fund accounts.


1.L.     General Property, Plant and Equipment
With the exception of buildings and structures related to hydropower projects which are capitalized regardless of cost,
USACE General Property, Plant, and Equipment (PP&E) is capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years and the acquisition cost exceeds $25 thousand.

When it is in the best interest of the government, USACE provides government property to contractors to complete
contract work. USACE either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E exceeds the DoD
capitalization threshold, it must be reported on USACE’s Balance Sheet.

In June 2004, USACE and the Department of Defense Office of Inspector General (DoD OIG), in coordination with the
General Accountability Office and the Department of Defense Office of the Undersecretary of Defense (Comptroller)/
Chief Financial Officer, executed a Memorandum of Agreement, entitled Support for Recorded Book Cost of General Property,
Plant & Equipment Assets (MOA).

The MOA provides alternate methods for USACE to estimate and support the historical costs of its real property assets,
including the administrative costs of land, acquired prior to FY 1999, and personal property assets acquired prior to FY 2003.
The alternate methods are necessary because certain supporting documentation to substantiate recorded costs for those
assets is no longer available. Management’s alternate methods, which are consistent with the principles, relevant to USACE
circumstances, as contained in Statements of Federal Financial Accounting Standards (SFFAS) No. 6, Accounting for Property,
Plant and Equipment and SFFAS No. 23, Eliminating the Category National Defense Property, Plant And Equipment, consist of using
a combination of appropriation or engineering documents, or other available real estate, financial and operations data,
combined with written management attestation statements, to estimate and support the original acquisition or construction
costs recorded for each asset.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   46
Construction in Progress (CIP) is used to accumulate the cost of construction or additions and betterments to fixed
assets. Project costs are transferred from CIP to the placed-in-service accounts when an asset or addition or betterment
is determined to be substantially complete and ready for its intended use. Accumulated costs remain in CIP until these
criteria are met.


1.M. Advances and Prepayments
Advances and prepayments made in advance of the receipt of goods and services are reported as an asset on the Balance
Sheet. Amounts are expensed or properly classified as assets when the related goods and services are received.


1.N. Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When
a lease is essentially equivalent to an installment purchase of property (a capital lease), USACE records the applicable asset
and liability if the value equals or exceeds the current capitalization threshold. USACE records the amounts as the lesser of
the present value of the rental and other lease payments during the lease term (excluding portions representing executory
costs paid to the lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the
lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of the lease. USACE, as the
lessee, receives the use and possession of leased property, for example real estate or equipment, from a lessor in exchange
for a payment of funds. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments
for operating leases are charged to expense over the lease term as it becomes payable.


1.O. Other Assets
Other assets include travel advances that are not reported elsewhere on USACE’s Balance Sheet.


1.P.      Contingencies and Other Liabilities
The SFFAS No. 5,Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition
of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of




                                                                                                                                   Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. USACE recognizes contingent liabilities when past events or exchange transactions
occur, a future loss is probable, and the loss amount can be reasonably estimated.

USACE discloses contingent liabilities when conditions for liability recognition do not exist but there is at least a reasonable
possibility of incurring a loss or additional losses. Examples of loss contingencies include the collectibility of receivables,
pending or threatened litigation, and possible claims and assessments. USACE’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship and
vehicle accidents; property or environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for USACE’s assets. This type of liability has two
components: nonenvironmental and environmental. Consistent with SFFAS No. 6,Accounting for Property, Plant, and
Equipment, recognition of an anticipated environmental disposal liability begins when the asset is placed into service.
Nonenvironmental disposal liabilities are recognized for assets when management decides to dispose of an asset based upon
DoD’s policy, which is consistent with SFFAS No. 5.


1.Q. Accrued Leave
USACE reports a liability for civilian earned leave, except sick leave, that has been accrued and not used as of the Balance
Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period reflects current pay
rates.



                                                           47
1.R. Federal Employees and Veteran’s Benefits.
The Federal Employees and Veteran’s Benefits consist of the actuarial liability for Federal Employees Compensation Act
benefits and accrued civilian severance pay. The Department of the Army (DA) actuarial liability for workers’ compensation
benefits is developed by the Department of Labor (DOL) and provided to the DA at the end of each fiscal year. The liability
for future workers’ compensation benefits includes the expected liability for death, disability, medical and miscellaneous
costs for approved compensation cases, plus a component for incurred but not reported claims. The liability is determined
using a method that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Consistent with past practice, these projected annual benefit payments have been
discounted to present value using the Office of Management and Budget’s economic assumptions for 10-year U.S.Treasury
notes and bonds.


1.S.     Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or
withdrawn. Unexpended Appropriations also represent amounts obligated for which legal liabilities for payments have not
been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses,
and financing sources (including appropriations, revenue, and gains).


1.T.      Unexpended Obligations
USACE obligates funds to provide goods and services for outstanding orders not yet delivered. The financial statements do
not reflect this liability for payment for goods and services not yet delivered, unless title passes.


1.U. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to a specific obligation, payable, or receivable in the activity field records as opposed to those reported
by the U.S.Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting
reports. In-transit payments are those payments that have been made, but have not been recorded in the fund holder’s
accounting records. These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections
are those collections from other agencies or entities that have not been recorded in the accounting records. These
collections are applied to the entities’ accounts receivable balance.

All undistributed disbursements and collections for USACE are unrecorded Intragovernmental Payment and Collection
transactions with other Federal entities.


1.V.       Prior Period Adjustments and Changes in Presentation
In accordance with OMB Circular A-136, USACE implemented a new reporting procedure for FY 2007 to exclude from
its financial statement activity its transfer appropriation accounts for parent/child relationships. The Circular requires the
parent agency to report all parent/child activity in its financial statements.

USACE is a party to allocation transfers with other federal agencies as a receiving (child) entity. Allocation transfers are
legal delegations by one agency of its authority to obligate budget authority and outlay funds to another agency. A separate
fund account (allocation account) is created in the U.S.Treasury as a subset of the parent fund account for tracking and
reporting purposes. All allocation transfers of balances are credited to this account, and subsequent obligations and outlays



Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   48
incurred by the child entity are charged to this allocation account as they execute the delegated activity on behalf of the
parent entity. Generally, all financial activity related to these allocation transfers (e.g., budget authority, obligations, outlays)
is reported in the financial statements of the parent entity, from which the underlying legislative authority, appropriations
and budget apportionments are derived. Exceptions to this general rule apply to specific funds for which OMB has directed
that all activity be reported in the financial statements of the child entity, which include all U.S.Treasury-Managed Trust
Funds, Executive Office of the President (EOP), and all other funds specifically designated by OMB for whom USACE
is the child in the allocation transfer, but per OMB guidance, will report all activity relative to these allocation transfers
in the Reporting Entity’s financial statements. The following funds meeting the OMB Circular A-136 exceptions and all
related activity are included in USACE financial statements: South DakotaTerrestrialWildlife Habitat Restoration, Inland
Waterways, and Harbor Maintenance trust funds.

USACE is a party to allocation transfers as the child for the following agencies: Department of Agriculture, Department
of Commerce, Department of the Interior, Department of the Army, Department of Transportation, and Department of
Energy.

USACE has removed the transfer appropriation accounts from the financial statements starting in fiscal year 2007. The
effect of this change is reported as a change in accounting principle in the fiscal year 2007 Statement of Changes in Net
Position.


1.W      Accounts Payable
Accounts payable are the amounts owed, but not yet paid, by USACE for goods and services received from other entities,
progress in contract performance made by other entities, and rents due to other entities. USACE has no known delinquent
accounts payable.


1.X.       Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources are those liabilities that are not covered by permanent indefinite
appropriations, which have been enacted and signed into law and are available for use as of the Balance Sheet date.




                                                                                                                                        Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
1.Y.     Revisions and Reclassifications
The comparative financial statements and accompanying note disclosures include revisions for the correction of clerical
errors not material to the financial statements taken as whole.Additionally, the financial statements include amounts that
have been reclassified to ensure consistency between the accounting periods.


1.Z.      Changes in Accounting Policy
Prior to FY2008, USACE recorded interest receivable and an off-setting liability (reported as Due toTreasury General
Fund) for the entire amount of LTWS agreements, which range from two to fifty years in duration. Effective FY 2008,
USACE implemented a change in accounting policy, whereby only the current portion of interest receivable under these
LTWS agreements is recorded in Accounts Receivable.

This accounting policy change resulted in a decrease in Accounts Receivable and a corresponding decrease in Due to
Treasury General Fund for FY2008. If this policy change had been in effect for FY2007, the impact of this change in
accounting policy would have been a $680.3 million reduction in Accounts Receivable and Due toTreasury General fund as
of September 30, 2007. This change in the accounting policy had no impact on Cumulative Results of Operations and Net
Cost of Operations for FY2008.




                                                             49
Note 2.          Nonentity Assets

 As of September 30                                                          2008                           2007
 (Amounts in thousands)

 Nonentity Assets
 Intragovernmental Assets
    Fund Balance with Treasury                                        $               10,331     $                     7,596
    Accounts Receivable                                                                     3                                3
    Total Intragovernmental Assets                                    $               10,334     $                     7,599
    Cash and Other Monetary Assets                                    $                   121    $                     1,371
    Accounts Receivable                                                              908,914                       1,617,715
    Total Nonfederal Assets                                           $              909,035     $                 1,619,086
 Total Nonentity Assets                                               $              919,369     $                 1,626,685
 Total Entity Assets                                                  $           47,669,561     $               42,952,997
 Total Assets                                                         $           48,588,930     $               44,579,682

Other Information

Asset accounts are categorized either as entity or nonentity. Entity assets consist of resources that USACE has authority to
use or where management is legally obligated to use funds to meet entity obligations. Nonentity assets are assets for which
USACE maintains stewardship accountability and responsibility to report but are not available for USACE’s operations.

Intragovernmental Nonentity Fund Balance withTreasury consists of amounts collected into deposit and suspense accounts
and is not available for use in operations. Deposit and suspense accounts are used to record amounts held temporarily until
ownership is determined. The USACE is acting as an agent or custodian for funds awaiting distribution.

Intragovernmental Nonentity Accounts Receivable consists of a receivable from the U.S. Coast Guard within the
Department of Homeland Security for the usage of dredge disposal areas. Nonentity Accounts Receivable are recorded in
unavailable receipt accounts and funds will be returned to the U.S.Treasury when collected. The USACE does not have
specific statutory authority to keep the receipts.

Cash and Other Monetary Assets reflect the Disbursing Officer’s Accountability which is comprised of change funds for
recreation cashiers, disbursing officer’s cash, and foreign currency. The Disbursing Officer acts as an agent for the U.S.
Treasury.

Nonentity Accounts Receivable represents all current and noncurrent receivables due from nonfederal sources. This
includes noncurrent receivables due from state and local municipalities for long-term water storage contracts; current
receivables due from state and local municipalities for water storage; accrued interest receivable; penalties, fines, and
administrative fees receivable; long-term receivables for hydraulic mining; leasing of land acquired for flood control
purposes and the allowance for doubtful accounts. Nonentity Accounts Receivables are recorded in unavailable receipt
accounts, including an offsetting custodial liability due to the U. S.Treasury and funds will be returned to the U.S.Treasury
when collected. The USACE does not have specific statutory authority to keep the receipts.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   50
Note 3.        Fund Balance with Treasury

 As of September 30                                                        2008                        2007
 (Amounts in thousands)

 Fund Balances
   Appropriated Funds                                            $             12,835,109      $               9,293,495
   Revolving Funds                                                                1,369,281                    1,178,590
   Trust Funds                                                                     113,702                         89,257
   Special Funds                                                                    11,127                          9,172
   Contributed Funds                                                               779,578                      559,877
   Other Fund Types                                                                126,596                         35,081
   Total Fund Balances                                           $             15,235,393      $            11,165,472
 Fund Balances Per Treasury Versus Agency
   Fund Balance per Treasury                                     $             15,314,980      $            11,252,881
   Fund Balance per USACE                                                      15,235,393                   11,165,472
 Reconciling Amount                                              $                  79,587     $                   87,409

Reconciling Amount

Fund Balance per USACE reported above does not include receipt accounts or cancelled appropriations, which USACE
closed according to the Treasury Financial Manual. In addition, Fund Balance per USACE reported above does not include
transfer funds where USACE is the child in a parent/child relationship. In accordance with OMB Circular A-136, the
financial activity is reported in the financial statements of the parent entity. Fund Balance per USACE includes cash
reported by the U.S.Treasury for InlandWaterways and Harbor Maintenance trust funds, for which USACE is identified as
the lead agency for reporting.

Other Information




                                                                                                                            Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
Appropriated Funds includes net disbursements for undistributed Intragovernmental Payment and Collection (IPAC)
transactions. These are distributed to the appropriate funds the following month.

Other FundTypes consist of deposit accounts, borrowing authority and the suspense account established to finance
Washington Aqueduct operations.


Status of Fund Balance with Treasury
 As of September 30                                                         2008                        2007
 (Amounts in thousands)

 Unobligated Balance
   Available                                                     $                11,468,629 $                 9,476,914
   Unavailable                                                                     4,913,510                   3,998,871
 Obligated Balance not yet Disbursed                                               8,955,081                   5,791,650
 Nonbudgetary FBWT                                                                    10,053                        8,481
 Non FBWT Budgetary Accounts                                                   (10,111,880)                 (8,110,444)
 Total                                                           $                15,235,393 $              11,165,472




                                                       51
Definitions

The Status of Fund Balance withTreasury reflects the budgetary resources to support the Fund Balance withTreasury
(FBWT).

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover
outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated with appropriations
expiring at fiscal year end that remain available only for obligation adjustments until the account is closed.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received,
services that have not been performed, and goods and services that have been delivered/received but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that do not have
budgetary authority, such as clearing accounts.

Non FBWT Budgetary Accounts represents adjustments to budgetary accounts that do not affect FBWT such as borrowing
authority, investment accounts, accounts receivable and unfilled orders without advance from customers. This category
reduces the Status of Fund Balance with Treasury.

Restricted Unobligated Unavailable Balances

Unobligated balances are segregated to show available and unavailable amounts. Unavailable unobligated balances are
restricted to future use and are not apportioned for current use. The USACE is the lead agency for reporting the financial
data for the Inland Waterways, Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat Restoration trust funds.
These trust funds remain invested and restricted for use until transferred to meet current expenditure requirements. The
U.S.Treasury, Bureau of Public Debt (BPD) maintains custody of the investments and the investment accounting records
used by USACE in financial reporting and invests the trust fund receipts.


Note 4.          Investments and Related Interest

                                                                                               2008
 As of September 30                                                                          Amortized
                                                                         Amortization       (Premium) /                          Market Value
 (Amounts in thousands)                                     Cost           Method            Discount         Investments, Net    Disclosure

 Intragovernmental Securities
                                                                          Level Yield
    Nonmarketable, Market-Based                       $     4,790,360     Calculation   $      (25,976)       $    4,764,384 $ 4,909,917
    Accrued Interest                                            25,220                                                25,220          25,220
    Total Intragovernmental Securities                $     4,815,580                   $      (25,976)       $    4,789,604 $ 4,935,137


                                                                                               2007
 As of September 30                                                                          Amortized
                                                                         Amortization       (Premium) /                          Market Value
 (Amounts in thousands)                                     Cost           Method            Discount         Investments, Net    Disclosure

 Intragovernmental Securities
                                                                          Level Yield
    Nonmarketable, Market-Based                       $     4,058,474     Calculation   $      (44,129)       $    4,014,345 $ 4,043,109
    Accrued Interest                                            24,008       N/A                          0           24,008          24,008
    Total Intragovernmental Securities                $     4,082,482                   $      (44,129)       $    4,038,353 $ 4,067,117




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information        52
Other Information

The Federal Government does not set aside assets to pay future benefits and expenditures associated with earmarked funds.
The earmarked funds are deposited in the U.S.Treasury, which used the cash for general government purposes. The U.S.
Treasury securities are issued to the earmarked funds as evidence of earmarked fund receipts. The U.S.Treasury securities
are an asset to USACE and a liability to the U.S.Treasury. The U.S.Treasury securities provide USACE with authority
to draw upon the U.S.Treasury to make future benefit payments or other expenditures, per the authorized users for the
individual trust funds.

The breakdown of total investments among the trust funds for FY 2008 is as follows: $4.6 billion in the Harbor
MaintenanceTrust Fund, $123.9 million in the InlandWaterwaysTrust Fund, and $118.3 million in the South Dakota
Terrestrial Wildlife Habitat Restoration Trust Fund.

The breakdown of total investments among the trust funds for FY 2007 is as follows: $3.7 billion in the Harbor
MaintenanceTrust Fund, $204.1 million in the InlandWaterwaysTrust Fund, and $102.5 million in the South Dakota
Terrestrial Wildlife Habitat Restoration Trust Fund.

The U.S.Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank
of New York on September 30, 2008 and September 30, 2007, respectively.


Note 5.        Accounts Receivable, Net

                                                                                    2008
 As of September 30                                                       Allowance For Estimated
 (Amounts in thousands)                               Gross Amount Due         Uncollectibles       Accounts Receivable, Net

 Intragovernmental Receivables                        $         881,283                      N/A    $              881,283
 Nonfederal Receivables (From the Public)                       941,148 $                  (840)                   940,308
 Total Accounts Receivable




                                                                                                                               Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
                                                      $        1,822,431 $                 (840)    $            1,821,591


                                                                                    2007
 As of September 30                                                       Allowance For Estimated
 (Amounts in thousands)                               Gross Amount Due         Uncollectibles       Accounts Receivable, Net

 Intragovernmental Receivables                        $         873,119                      N/A    $              873,119
 Nonfederal Receivables (From the Public)                      1,650,508 $               (5,934)                 1,644,574
 Total Accounts Receivable                            $        2,523,627 $               (5,934)    $            2,517,693

Accounts Receivable, Net

Effective FY2008, USACE changed its accounting policy to exclude non-current interest receivable component of Accounts
Receivable and the offsetting Due to Treasury General Fund liability related to Long-Term Water Storage agreements. For
further discussion, refer to Note 1.Z., “Changes in Accounting Policy”.

Note 1.I.Accounts Receivable describes methods used to estimate the allowance for uncollectible accounts.




                                                          53
Note 6.          Cash and Other Monetary Assets

 As of September 30                                                              2008                         2007
 (Amounts in thousands)

 Cash                                                                      $                  23   $                          52
 Foreign Currency                                                                             98                        1,319
 Total Cash and Foreign Currency                                           $                 121   $                    1,371

Other Information

Cash is the total of cash resources under the control of USACE, which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total
U.S. dollar equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

USACE conducts operations overseas on behalf of the U.S. Government which involves the use of foreign currency.
Foreign currency fluctuations require adjustments to the original obligation amount at the time of payment. USACE does
not separately identify currency fluctuations.

USACE translates foreign currency to U.S. dollars utilizing the U.S.Treasury Prevailing Rate of Exchange. This rate is the
most favorable rate that would legally be available to the Federal Government acquisition of foreign currency for its official
disbursements and accommodation of exchange transactions. There are no significant effects from changes in the foreign
currency exchange rate.


Note 7.          Inventory and Related Property

 As of September 30                                                             2008                          2007
 (Amounts in thousands)

 Work in Process                                                           $             30,406     $                  15,586
 Operating Materials & Supplies, Net                                                     96,259                       106,118
 Total                                                                     $            126,665     $                 121,704

Work in Process Inventory

There are no restrictions on the use, sale or disposition of Work in Process (WIP) inventory. The WIP inventory valuation
method is based on a moving weighted average based on actual cost divided by quantity (Moving Average Cost, or MAC).
USACE has no revaluation allowances forWIP inventory as of September 30, 2008 and 2007. A perpetual record of
inventory is maintained to allow for recomputation of the average unit cost as new receipts are recorded.

Operating Materials and Supplies

There are no restrictions on the use of Operating Materials and Supplies (OM&S). The general composition of USACE
OM&S is personal property held for use to be consumed in normal operations. The OM&S category includes materials
used for constructing riverbank stabilization devices, spare and repair parts, miscellaneous office supplies, and prepaid
postage. The valuation method is based on net realizable value (NRV). OM&S are net of a $15 thousand revaluation
allowance at both September 30, 2008 and 2007. The appropriate classification of OM&S reserves is determined by
factoring the relevant cost associated with maintaining the available operating materials and supplies, as well as the time
required to replenish the operating materials and supplies.



Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   54
Note 8.         General Property, Plant & Equipment, Net

                                                                                          2008
                                                 Depreciation/                                        (Accumulated
 As of September 30                              Amortization     Service                             Depreciation/
 (Amounts in thousands)                            Method          Life       Acquisition Value       Amortization)         Net Book Value

 Major Asset Classes
   Land                                              N/A              N/A     $    8,912,388      $              N/A        $    8,912,388
   Buildings, Structures, and Facilities             S/L         20 - 100         28,620,411            (13,929,521)            14,690,890
   Leasehold Improvements                            S/L         lease term            41,016                (31,496)                9,520
   Software                                          S/L         2-5 Or 10             86,305                (76,882)                9,423
   General Equipment                                 S/L           5 - 50          1,487,133               (728,612)              758,521
   Construction-in-Progress                          N/A              N/A          2,203,089                     N/A             2,203,089
   Other                                                                               31,064                         (2)           31,062
 Total General PP&E                                                           $   41,381,406            (14,766,513)            26,614,893


 Legend for Depreciation Methods:
 S/L = Straight Line      N/A = Not Applicable



                                                                                          2007
 As of September 30                              Depreciation/                                          (Accumulated
                                                 Amortization     Service          Acquisition          Depreciation/            Net Book
 (Amounts in thousands)                            Method          Life              Value              Amortization)             Value

 Major Asset Classes
   Land                                              N/A              N/A     $    9,000,775      $              N/A        $    9,000,775
   Buildings, Structures, and Facilities             S/L         20 - 100         27,849,270            (13,420,755)            14,428,515
   Leasehold Improvements                            S/L         lease term            38,442                (28,634)                9,808




                                                                                                                                             Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
   Software                                          S/L         2-5 Or 10             84,093                (67,099)               16,994
   General Equipment                                 S/L           5 - 50          1,446,660               (689,859)              756,801
   Construction-in-Progress                          N/A              N/A          2,494,195                     N/A             2,494,195
   Other                                                                               27,508                         (1)           27,507
 Total General PP&E                                                           $   40,940,943      $     (14,206,348)        $   26,734,595

General PP&E

As of September 30, 2008 and 2007, Land includes a cumulative total of $2.6 billion of intangible assets comprised of
relocation and administrative cost associated with the acquisition of land in conjunction with hydropower projects.

In FY 2008, USACE received $79.7 million in direct appropriations from the Department of Energy, Power Marketing
Administration, for operation and maintenance activities at hydroelectric power plants operated by USACE at the Portland,
Seattle and Walla Walla districts. In FY 2007, the amount received was $73.8 million.

The USACE currently operates and maintains 75 hydroelectric power plants, generating approximately 24% of America’s
hydroelectric power. All power generated by these hydroelectric power plants is transmitted to four Power Marketing
Administrations for distribution to power companies across the United States. The service life for USACE’s multiple
purpose project assets is derived from guidance provided by the Federal Energy Regulatory Commission based on industry




                                                                 55
standards. The hydropower project related assets make up $9.7 billion of the book value of USACE’s PP&E in FY 2008 and
FY 2007.

During FY 2008, the decision was made to move $151.1 million in CIP costs associated with “Elk Creek Lake Project” to
Expense. This dormant project, located at USACE Portland district, was authorized by the 1962 Flood Control Act for
the purpose of flood control. In 1971, construction began on the project, but was shut down after completing only 33%
of its design height due to a court-ordered injunction. Additional analysis under the National Environmental Policy Act is
required to remove the injunction. To date, the environmental concerns have not been resolved. During the 4th Quarter
FY2008, USACE “notched” the dam by blasting away the partially built dam structure, layer by layer, 200 feet across. The
“notching” enabled fish passage along the Elk Creek bed before a permit to trap and haul the threatened Coho Salmon
expired. No future economic benefit for flood control remains for the “notched” dam.

Other consists of assets awaiting disposal.

As of September 30, 2008 approximately $26.3 billion of the $41.4 billion acquisition value recorded in the PP&E line
is being supported by alternate methods pursuant to the Memorandum of Agreement described in Note 1.L “General
Property, Plant, and Equipment”. As of September 30, 2007 approximately $26.3 billion of the $40.9 billion acquisition
value recorded in the PP&E line is being supported by alternate methods pursuant to the Memorandum of Agreement
described in Note 1.L “General Property, Plant, and Equipment”.


Note 9.          Stewardship PP&E
Heritage Assets

Heritage assets are property, plant and equipment (PP&E) that are unique for one of more of the following reasons:
historical or natural significance; cultural, educational, or artistic (e.g., aesthetic) importance; or significant architectural
characteristics.

On October 30, 2003, Engineer Regulation (ER) 200-1-5, Policy for Implementation and Integrated Application of
the USACE Environmental Operating Principles and Doctrine, was issued. The ER states, in part, “The Environmental
Operating Principles and associated doctrine highlight USACE’s roles in, and responsibilities for, sustainability, preservation,
stewardship, and restoration of our nation’s resources. These principles and associated doctrine are based on the premise
that through the restoration and maintenance of environmental health and productivity, both economic development and
social equity can be achieved.”

Heritage assets classified as land are special land plots containing archaeological sites as listed on the National Register of
Historic Places or determined eligible to be listed by the agency and the Keeper of the National Register. Cemeteries
and archeological sites are archeological properties listed on, or eligible for, the National Register of Historic Places.
These archeological assets cover almost the entire range of human occupation of the continental U.S. beginning with the
Kennewick Man Discovery Site in the state ofWashington, dating to approximately 10,000 years ago, to archeological
remains of early European-American settlements such as Fort Independence in Georgia. The current National Register
inventory for USACE includes 489 archeological properties determined to be eligible for listing and
97 archeological properties listed.

Buildings and structures include a range of historic resources from a covered bridge in Sacramento district to early farming
structures in Savannah district. It also includes some nontraditional structures such as a snag boat that operated on the
Mississippi River. The USACE has 117 buildings and structures listed on the National Register and 236 determined eligible
for listing.



Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   56
The USACE did not acquire or withdraw any heritage assets during FY 2008 or FY 2007.

Stewardship Land is land and land rights owned by the Federal Government but not acquired for or in connection with
items of general PP&E. Examples of stewardship land include land used as forests and parks, and land used for wildlife and
grazing. The USACE currently does not have any land classified as stewardship land.


Note 10. Liabilities Not Covered by Budgetary Resources

 As of September 30                                                              2008                         2007
 (Amounts in thousands)

 Intragovernmental Liabilities
   Debt                                                               $                   12,130    $                   12,917
   Due to Treasury - General Fund                                                        900,089                     1,617,061
   Other                                                                                 215,888                      214,406
 Total Intragovernmental Liabilities                                  $                 1,128,107   $                1,844,384
   Federal Employee and Veterans’ Benefits                                               253,356                      251,584
   Environmental Liabilities                                                             982,112                      656,123
   Other                                                                                  54,047                      106,000
 Total Liabilities Not Covered by Budgetary Resources                 $                 2,417,622   $                2,858,091
 Total Liabilities Covered by Budgetary Resources                     $                 3,128,712   $                1,494,411
 Total Liabilities                                                    $                 5,546,334   $                4,352,502

Other Information

Liabilities not covered by budgetary resources are liabilities for which Congressional action is needed before budgetary

resources can be provided.





                                                                                                                                    Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
Intragovernmental Liabilities – Debt is comprised of the amount owed by USACE to the

U.S.Treasury for capital improvements to the Washington Aqueduct. Arlington County and the city of Falls Church,

Virginia provide funding to USACE to repay the debt. Refer to 

Note 11, “Debt,” for additional details and disclosures.


Intragovernmental Liabilities – Due to Treasury - General Fund includes offsetting custodial liability to accounts receivable.

The custodial liability is for amounts that will be deposited in the general fund of the U.S.Treasury when collected and are 

primarily related to Long Term Water Storage agreements. Budgetary resources are not required for custodial liabilities.


Intragovernmental Liabilities – Other includes Judgment Fund liabilities-Contract Dispute Act (CDA), and workmen’s 

compensation liabilities under the Federal Employees Compensation Act (FECA). The USACE is seeking supplemental

funding for CDA liability. The FECA liability will not be funded until FY 2009.


Federal Employee and Veterans’ Benefits include actuarial liability for Federal Employee Compensation Act (FECA). Refer

to Note 13, “Due toTreasury - General Fund and Other Liabilities,” for additional details and disclosures. The FECA 

actuarial liability is a future funded expense and will be funded in future appropriations.


Environmental Liabilities include future funded expense for estimated cleanup costs for environmental liabilities. The 

liabilities will be funded in future appropriations. Refer to Note 12, “Environmental Liabilities and Disposal Liabilities,” and

Note 13, “Due to Treasury - General Fund and Other Liabilities,” for additional details and disclosures.





                                                           57
Other Liabilities include contingent liability for probable losses totaling $54 million and $106 million at September 30,
2008 and 2007, respectively related to lawsuits filed against USACE and contingent liability based on percentage of tort,
litigation and contract dispute claims. Contingent liabilities may be funded in future appropriations. Refer to Note 14
“Commitments and Contingencies” for additional details and disclosures.


Note 11. Debt

                                                                                                 2008
 As of September 30
 (Amounts in thousands)                                               Beginning Balance      Net Borrowing            Ending Balance
 Agency Debt (Intragovernmental)
 Debt to the Treasury                                             $               12,917 $               (787)    $             12,130


                                                                                                 2007
 As of September 30
 (Amounts in thousands)                                           Beginning Balance          Net Borrowing            Ending Balance
 Agency Debt (Intragovernmental)
 Debt to the Treasury                                             $               13,924 $              (1,007)   $             12,917

Other Information

The outstanding debt consists of interest and principal payments due to the U.S.Treasury. USACE executed three
promissory notes totaling $75.0 million with the U.S.Treasury for capital improvements to the Washington Aqueduct. The
USACE entered into agreements with the District of Columbia,Arlington County and the city of Falls Church,Virginia
to provide funding to USACE to repay the debt. The USACE recognized a receivable for $12.7 million in principal and
current interest due from Arlington County and the city of Falls Church,Virginia, September 30, 2008. As of 2nd Quarter,
FY 2004, the District of Columbia had provided its entire portion of the funding to USACE. The remaining debt balance is
scheduled to be paid off in FY 2023. Actual cumulative amount of funds borrowed from the U.S.Treasury is $74.9 million
of which $12.1 million is outstanding at September 30, 2008 and $12.9 million is outstanding at September 30, 2007.
There were no withdrawals from the U.S.Treasury for FY 2008 or FY 2007. Total principal repayments in FY 2008 were
$787.0 thousand and no capitalized interest. Total principal repayments in FY 2007 were $675.0 thousand and capitalized
interest of $332.0 thousand.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information          58
Note 12. Environmental Liabilities and Disposal Liabilities

 As of September 30                                                                             2008              2007
 (Amounts in thousands)

 Other Accrued Environmental Costs - Other
 Formerly Utilized Sites Remedial Action Program, which was established to
 respond to radiological contamination from early US Atomic Energy and Weapons
 Program.                                                                                  $    $969,347     $      637,872

 Sonoma Firing Range and Underground Storage Tank Monitoring Wells, Mount
 Morris Dam, Bradford Island Landfill, John H. Kerr Dam and Reservoir, Missouri
 River Project, J. Strom Thurmond Project, Williston-Garrison Project, Midwestern
 Trading Site, and Fountain City Services.                                                 $       12,765    $       18,251
 Total                                                                                     $      982,112    $      656,123


Other Information

USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), which was established to
respond to radiological contamination from early U.S.Atomic Energy and Weapons Program. This program is funded
through a CivilWorks appropriation. The amount of the liability is determined after studies have been completed and final
Records of Decision documenting the cleanup requirements are prepared. The amount of the liability is recorded as Other
Accrued Environmental Liabilities.

The following laws and regulations are applicable for the environmental cleanup requirements: Energy andWater
Development Appropriations Act, Public Law 106-60 § 611; Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA), 42 United States Code § 9601 et seq., as amended; and National Oil and Hazardous Substances
Pollution Contingency Plan,Title 40 Code of Federal Regulations 300. There are no changes to total cleanup costs due to
changes in laws, regulations and/or technology related to the current or prior periods. Consistent with the requirements
of CERCLA, USACE coordinates with regulatory agencies, other responsible parties, and current property owners.




                                                                                                                                Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
USACE uses site-specific engineering estimates for assigning estimated environmental costs. Both the cost to complete
remedial investigation/feasibility studies through a Record of Decision and the estimated cost of chosen remedies are
reported. Engineering estimates, using appropriate tools, such as the Micro-Computer Assisted Cost Estimating System,
and using the extensive data collected during the remedial investigation/feasibility study phase of the environmental project
are used. The volume of contaminated material and the cost to dispose of such material, including transportation, are the
elements of project estimates with the greatest uncertainty and potential for significant effect upon project costs. The
estimated costs of studies are reported during the early part of the remedial investigation and the estimated cost of the
chosen remedy is reported after release of the Proposed Plan.

USACE is not aware of any changes in estimated environmental liabilities currently necessary due to inflation, deflation,
technology or applicable laws and/or regulations. Estimated liabilities can change in the future due to changes in laws and
regulations, changes in agreements with regulatory agencies, and advances in technology, or the identification of additional
contamination sites.

For FY 2008, USACE recognizes current and noncurrent environmental liabilities for FUSRAP in the amount of $969.3
million at the following project sites: Ashland Site, Colonie Interim Storage Site Groundwater, Colonie Interim Storage
Site Soils, Combustion Engineering Site, DuPont Chambers Works Site, Guterl Specialty Steel Site, Harshaw Chemical
Company Site, Iowa Army Ammunition Plant FUSRAP Site, Latty Avenue Properties Site, Linde Air Products Site
Groundwater, Linde Air Products Site Soils, Luckey Site Groundwater, Luckey Site Soils, Maywood Site Groundwater,




                                                         59
Maywood Site Soils, Middlesex Sampling Plant Site Groundwater, Middlesex Sampling Plant Soils, Niagara Falls Interim
Storage Site, Painesville Site, Seaway Industrial Park Site, Shallow Land Disposal Area Site, Shpack Landfill Site, St. Louis
Airport Vicinity Properties Site, St. Louis Airport Site, St. Louis Downtown Site Accessible Soils, St. Louis Downtown
Site Inaccessible Soils, Sylvania Corning Plant Site,W. R. Grace Curtis Bay Building 23 Site and W. R. Grace Curtis Bay
Radioactive Waste Disposal Area Site.

For FY 2007, USACE recognizes current and noncurrent environmental liabilities for FUSRAP in the amount of $637.9
million at the following project sites: St. Louis Downtown Site Accessible Soils, St. Louis Airport Site, Latty Avenue
Properties Site, St. Louis AirportVicinity Properties Site, Maywood Site Soils, Middlesex Sampling Plant Soils, Shpack
Landfill Site,W. R. Grace Building 23 Site, Colonie Interim Storage Site Soils, Luckey Site Soils, Linde Air Products Site
Soils, Painesville Site,Ashland Site, St. Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition Plant FUSRAP
Site, Colonie Interim Storage Site Groundwater, Maywood Site Groundwater, Middlesex Sampling Plant Site Groundwater,
Combustion Engineering Site, DuPont Chambers Works Site,W. R. Grace Radioactive Waste Disposal Area Site, Sylvania-
Corning Plant Site, Linde Air Products Site Groundwater, Luckey Site Groundwater, Seaway Industrial Park Site, Shallow
Land Disposal Area Site, Former Harshaw Chemical Company Site, Guterl Specialty Steel Site, and Niagara Falls Interim
Storage Site.

USACE acknowledges reasonably possible contingent environmental liabilities related to FUSRAP as of September 30,
2008, but the liability amounts are currently unknown and USACE cannot determine an estimable range of loss for
additional contamination sites. The project sites are: St. Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition
Plant FUSRAP Site, Middlesex Sampling Plant Site Groundwater, Combustion Engineering Site, DuPont Chambers Works
Site,W. R. Grace RadioactiveWaste Disposal Area Site, Niagara Falls Storage Site, Harshaw Chemical Company Site, Guterl
Specialty Steel Site, Colonie Interim Storage Site Groundwater, Josyln Manufacturing, Scioto Laboratory, Superior Steel
Site, and Sylvania Corning Plant.

USACE acknowledges reasonably possible contingent environmental liabilities related to FUSRAP as of September 30,
2007, but the liability amounts are currently unknown and USACE cannot determine an estimable range of loss for
additional contamination sites. The project sites are: St. Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition
Plant FUSRAP Site, Middlesex Sampling Plant Site Groundwater, Combustion Engineering Site, DuPont Chambers Works
Site,W. R. Grace RadioactiveWaste Disposal Area Site, Niagara Falls Storage Site, Former Harshaw Chemical Company
Site, Guterl Specialty Steel Site, Colonie Interim Storage Site Groundwater, Josyln Manufacturing, Scioto Laboratory, and
Seaway Industrial Park Site.

For FY 2008, USACE recognizes other environmental liabilities not related to FUSRAP in the amount of $12.8 million.
The project sites are: Sonoma Firing Range and Sonoma Underground Storage Tanks Monitoring Wells in Sonoma,
California; Mount Morris Dam in New York; Bradford Island Landfill in Oregon;Williston Landfill – Garrison Project in
North Dakota; J. Strom Thurmond Project in Georgia; John H. Kerr Dam and Reservoir Firing Range and John H. Kerr
Dam and Reservoir Contaminated Soil Sites inVirginia; MidwesternTrading Site in Illinois; Fountain City Service Base in
Wisconsin.

For FY 2007, USACE recognizes other environmental liabilities not related to FUSRAP in the amount of $18.2 million.
The project sites are: Sonoma Firing Range and Sonoma Underground Storage Tanks Monitoring Wells in Sonoma,
California; Mount Morris Dam in NewYork; Bradford Island Landfill in Oregon; John H. Kerr Dam and Reservoir in
Virginia; Missouri River Project in Nebraska; and J. Strom Thurmond Project in Georgia.

The USACE recognizes other environmental liabilities not related to FUSRAP but the liability amounts are currently
unknown. The project site is: John H. Kerr Dam and Reservoir Tungsten Queen Mine in North Carolina.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   60
Note 13. Due to Treasury – General Fund and Other Liabilities

                                                                                    2008
As of September 30                                                               Noncurrent
(Amounts in thousands)                                   Current Liability        Liability           Total

Intragovernmental
  Due to Treasury-General Fund                           $      124,255      $       775,834      $     900,089
  Advances from Others                                   $      524,833      $                0   $     524,833
  Deposit Funds and Suspense Account Liabilities                     (273)                                    (273)
  Disbursing Officer Cash                                             121                                      121
  Judgment Fund Liabilities                                     167,624                                 167,624
  FECA Reimbursement to the Department of Labor                   20,337              27,806              48,143
  Employer Contribution and Payroll Taxes Payable                 17,500                                  17,500
  Total Intragovernmental                                $      854,397      $       803,640      $   1,658,037
  Accrued Funded Payroll and Benefits                    $      399,797      $                0   $     399,797
  Advances from Others                                          134,797                                 134,797
  Deferred Credits                                              755,426                                 755,426
  Deposit Funds and Suspense Accounts                             10,332                                  10,332
  Contract Holdbacks                                              48,871                                  48,871
  Contingent Liabilities                                          54,047                                  54,047
Total Other Liabilities                                  $    2,257,667      $       803,640      $   3,061,307


                                                                                    2007
As of September 30                                                               Noncurrent
(Amounts in thousands)                                   Current Liability        Liability           Total




                                                                                                                      Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
Intragovernmental
  Due to Treasury –General Fund                          $      113,355      $     1,503,706      $   1,617,061
  Advances from Others                                   $        26,768     $                0   $       26,768
  Deposit Funds and Suspense Account Liabilities                    2,313                     0               2,313
  Disbursing Officer Cash                                               48                    0                 48
  Judgment Fund Liabilities                                     167,410                       0         167,410
  FECA Reimbursement to the Department of Labor                   20,660              26,335              46,995
  Employer Contribution and Payroll Taxes Payable                 13,928                      0           13,928
  Total Intragovernmental                                $      344,482      $     1,530,041      $   1,874,523
  Accrued Funded Payroll and Benefits                    $      356,720      $                0   $     356,720
  Advances from Others                                            37,288                      0           37,288
  Deferred Credits                                                       0                    0                  0
  Deposit Funds and Suspense Accounts                               7,596                     0               7,596
  Contract Holdbacks                                              81,322                      0           81,322
  Contingent Liabilities                                        106,000                                 106,000
Total Other Liabilities                                  $      933,408      $     1,530,041      $   2,463,449




                                                    61
Due to Treasury General Fund and Other Liabilities

Effective FY2008, USACE changed its accounting policy to exclude non-current interest receivable component of Accounts
Receivable and the offsetting Due to Treasury General Fund liability related to Long-Term Water Storage agreements. For
further discussion, refer to Note 1.Z., “Changes in Accounting Policy.”

Other Information

Intragovernmental - Due to Treasury – General Fund is comprised of the custodial liability to offset interest and accounts
receivable which, when collected, will be deposited in the U.S.Treasury. USACE records a custodial liability for payables
from water storage and hydraulic mining contracts.

Judgment Fund Liabilities - USACE CivilWorks Directorate has recognized 43 and 41 unfunded liabilities in FY 2008
and FY 2007, respectively arising from Judgment Fund Contract Disputes Act (CDA) settlements in accordance with the
Interpretation of Federal Financial Accounting Standards No. 2, Accounting for Treasury Judgment Fund Transactions. USACE
cannot fund the CDA claims since USACE is funded for projects and does not include an allowance to pay this type of
claim. USACE sought supplemental appropriations for payment of CDA claims since 2005 which were not approved. The
FY 2008 budget does not provide funding for payment of the CDA claims. The U.S. Government Accountability Office is
currently reviewing the status of the outstanding CDA claims and should provide recommendations regarding the payment
or other treatment of these claims.


Note 14. Commitments and Contingencies
Legal Contingencies

The USACE is a party in various administrative proceedings and legal actions, with claims including environmental damage
claims, equal opportunity matters, and contractual bid protests. The USACE has accrued contingent liabilities for legal
actions where the USACE’s Office of the General Counsel (OGC) considers an adverse decision probable and the amount
of loss is measurable. In the event of an adverse judgment against the Government, some of the liabilities may be paid from
the U.S.Treasury’s Judgment Fund. The USACE discloses amounts recognized as contingent liabilities in Note 13 “Due
to Treasury-General Fund and Other Liabilities”. Amounts that are determined to be payable by the Judgment Fund are
reclassified as an imputed financing source and disclosed in the Note 16, “Disclosures Related to the Statement of Changes
in Net Position”

The U.S.Army Claims Service (USARCS) supervises processes, investigates, adjudicates, and negotiates the settlement of
non-contractual administrative claims on behalf of and against the Department of the Army (including USACE); however,
because of their uniqueness, the hurricane Katrina-related administrative claims are processed differently, as discussed
below. By law, administrative claims filed against the Government are either adjudicated, denied, or are effectively denied
if no action is taken within six months from the claim filing date. Barring such resolution within six months from the date
of filing, claimants may file legal cases with the Federal court. Filing of an administrative claim for resolution is a required
precursor to a claimant’s filing against the Government in Federal court.

Claims settled below the statutory threshold of $2,500 are paid using Civil Works appropriations; settlements above
this threshold are referred toTreasury’s Judgment Fund for payment. With the exception of Contract Disputes Act and
Notification and Federal Employee Antidiscrimination and Retaliation Act settlements disclosed in Note 13 “Due to
Treasury-General Fund and Other Liabilities” amounts that are paid by the Judgment Fund are recorded as imputed costs
and financing sources.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   62
Katrina-Related Claims and Litigation

Numerous administrative claims have been filed with USACE as a result of hurricane Katrina. Approximately 492
thousand, as of September 30, 2008 and 489 thousand, as of September 30, 2007 Federal Tort Claims Act administrative
claims. The total asserted damages are expected to exceed $500 billion, for alleged personal injury, wrongful death, and
property damages as a result of massive flooding caused by Hurricane Katrina. The U.S. Department of Justice (DOJ)
currently has the responsibility to process these Katrina-related administrative claims due to the volume and the dollar
amounts alleged. DOJ, through its contractors, has created a software system that is capable of imaging and labeling each
claim, generating and mailing acknowledgment letters, and linking duplicate and related claims. In FY2009, responsibility
for maintaining these administrative claims may be transitioned to USARCS.

Authority to deny any of the administrative claims rests solely with DOJ and not with USARCS. Thus far, only six of the
Katrina-related administrative claims have been denied by DOJ. None have been settled. The six denials have been issued
to the named plaintiffs in the “Robinson” case, which is not a class action and has been designated the lead case in the
consolidated Katrina litigation. USARCS and USACE, who bear the decision-making responsibility for settling the claims,
subject to DOJ approval, have indicated they do not intend to settle or deny any Katrina-related administrative claim prior
to lapse of the statutory six-month period, unless instructed by DOJ to do so. As a result, such unsettled claims have the
potential of becoming litigations in Federal court at the claimants’ discretion.

Katrina-related administrative claims described above and other possible matters not currently known may result in
additional litigation in Federal court. A Tucker Act case may be filed in Federal court up to six years after the right of first
action accrues with the plaintiff but claim litigation must be filed within six months of an administrative denial. However,
that period does not begin to run if the claim is not denied.

The DOJ, which is responsible for litigating Katrina-related matters in Federal court on behalf of the Government, intends
to vigorously defend the Government in these matters. The DOJ has concluded that there is a reasonable possibility that the
Katrina-related administrative claims and court cases currently asserted could result in a loss to the Federal government.
The amount of losses pertaining to potential hurricane Katrina-related damages not currently asserted against USACE, if
any, is not determinable.




                                                                                                                                   Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
Most of the Katrina-related litigation that has been filed is consolidated before a single Federal judge in the Federal District
Court in New Orleans. The Court, for case management purposes, has classified the individual cases into seven categories
and ordered the filing of superseding, master complaints in most categories: Levee, Mississippi River Gulf Outlet
(MRGO), Insurance, Responder, Dredging Limitations, St. Rita Nursing Home and Barge. In addition, the “Robinson” case,
discussed above, is consolidated with these other cases. The MRGO and Barge categories along with “Robinson,” all three
involving similar geographic areas, are most relevant to USACE at this point as the United States has been dismissed without
prejudice from the St. Rita Nursing Home cases and has been dismissed from the Levee cases by a non-final judgment
rendered on January 30, 2008. In addition, there is one remaining Tucker Act case currently being litigated in the Court of
Federal Claims.

The “Robinson” case is set for trial on April 20, 2009. The Court has denied the United States Motion to Dismiss on the
basis of flood control immunity, and the United States plans to file in FY 2009, a Motion to Dismiss on the basis of the
discretionary function exception to the FederalTort Claims Act. A favorable decision would be instructive in both the
MRGO and Barge categories of this consolidated litigation.

The MRGO and Barge categories are subject to a common scheduling order with class certification hearings scheduled for
December 9, 2008, and trial commencing on July 13, 2009. Discovery is ongoing in these categories; however, no motion
to dismiss has been filed. All such dispositive motions are being filed and argued in the “Robinson” case.




                                                            63
Other Litigation

Outside the Katrina-related litigation, USACE has 33 and 24 cases, as of September 30, 2008 and 2007, respectively,
above the threshold of $7.1 million and $7.2 million respectively. The USACE OGC has determined that 3 and 3 cases are
probable, 9 and 2 cases are reasonably possible, 10 and 8 cases are not determinable, and 11 and 11 cases are remote as of
September 30, 2008 and 2007, respectively. Of the 3 and 3 probable cases, 2 and 3 are recorded as liabilities for $35 and
$80 million as of September 30, 2008 and 2007, respectively; the potential liability for the remaining 1 and 0 probable cases
is not determinable. Additionally, of the 9 and 2 cases reasonable possible 3 were estimated potential loss of $30 million as
of September 30, 2008. The amount of potential loss was not determinable on the remaining 6 and 2 cases as of September
30, 2008 and 2007 respectively.

Additionally, USACE has a total of $190.5 million as of September 30, 2007 and $260 million as of September 30, 2008 in
pending contract claims, civil litigation and non-Katrina tort cases which were individually under the thresholds of $7.1 million
and $7.2 million respectively. As such, the likelihood of an unfavorable outcome or potential liability is provided as an overall
assessment of all cases currently pending and not on an individual basis (as with the over-threshold cases). The likelihood of an
unfavorable or potential liability was determined by using a three-year historical average. The total dollar amount of the cases
closed was divided by the total dollar amount claimed in those closed cases for each of the last three years which were then
used to calculate the three year average of 10%. This average represents the percentage that has historically been paid on claims
and is based entirely on historical data. The merits of each individual case have not been taken into consideration. Based on the
10% average, a contingent liability of $19.0 million was recorded as of September 30, 2008 and $26.0 million as of September
30, 2007.

Other Contingencies

The USACE does not have undelivered orders for open contracts citing cancelled appropriations which may remain unfilled
or unreconciled and for which the reporting entity may incur a contractual commitment for payment.

The USACE does not have contractual arrangements such as fixed price contracts with escalation, price redetermination, or
incentive clauses; contracts authorizing variations in quantities; and contracts where allowable interest may become payable
based on contractor claims under the “Dispute” clause contained in contracts.


Note 15. General Disclosures Related to the Statement of Net Cost

 As of September 30                                                              2008                          2007
 (Amounts in thousands)

 Intragovernmental Costs                                                   $            1,434,065    $                1,130,000
 Public Costs                                                                           8,087,251                     7,485,546
 Total Costs                                                               $            9,521,316    $                8,615,546
 Intragovernmental Earned Revenue                                          $          (2,180,957)    $              (2,175,993)
 Public Earned Revenue                                                                   (20,194)                   (1,269,694)
 Total Earned Revenue                                                      $          (2,201,151)    $              (3,445,687)
 Net Cost of Operations                                                    $            7,320,165    $                5,169,859

Other Information

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal
Government. Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
entity.



Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   64
The consolidated Statement of Net Cost (SNC) is unique because its principles are driven on understanding the net cost
of programs and/or organizations that the Federal Government supports through appropriations or other means. This
statement provides gross and net cost information that can be related to the amount of output or outcome for a given
program and/or organization administered by a responsible reporting entity.

USACE incurred no costs associated with acquiring, constructing, improving, reconstructing or renovating heritage assets
or acquiring stewardship land.


Note 16. Disclosures Related to the Statement of Changes in Net Position
Other Information

Appropriations received on the Statement of Budgetary Resources (SBR) should not and do not agree with appropriations
received on the Statement of Changes in Net Position (SCNP) due to differences between proprietary and budgetary
accounting concepts and reporting requirements. The difference is due to additional resources of $1.6 billion during FY
2008 and FY 2007 in appropriated trust, contributed, and special fund receipts included in Appropriations on the SBR.
These funds do not update the proprietary appropriations received amount reported on the SCNP. Refer to Note 17,
“Statement of Budgetary Resources,” for additional disclosures and details.

In the SCNP, all offsetting balances (i.e. transfers-in and transfers-out, revenues and expenses) for intradepartment activity
between earmarked and other (nonearmarked) funds are reported on the same lines. This activity is reported in the
eliminations column, which appears to contain a zero balance; however, the column contains all appropriate elimination
entries, but all net to zero within each respective line, except for intraentity imputed financing costs.

Cumulative Results of Operations – Earmarked Funds ending balance on the SCNP should not and does not agree with
the Cumulative Results of Operations – Earmarked Funds reported on the Balance Sheet because the cumulative results on
the Balance Sheet are presented net of eliminations, whereas Cumulative Results of Operations balance for earmarked and
other funds on the Statement of Changes in Net Position are presented before eliminations.




                                                                                                                                 Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
Note 17. Disclosures Related to the Statement of Budgetary Resources

 As of September 30                                                                           2008                2007
 (Amounts in thousands)

 Net Amount of Budgetary Resources Obligated for Undelivered Orders at the
 End of the Period                                                                       $     7,735,527     $     3,907,831

Other Information

Category A apportionments distribute budgetary resources by fiscal quarter. Category B apportionments distribute
budgetary resources by activity, project, object or a combination of these categories. Exempt budgetary resources are not
subject to apportionment because they are not appropriated funds. Funding sources for exempt category comes from
sources outside the Federal Government.

For FY 2008, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A
in the Statement of Budgetary Resources (SBR) includes: $9.3 billion for direct obligations; $11.5 billion for reimbursable
obligations; and $141.0 million for reimbursable obligations exempt from apportionment. The USACE did not report
any direct obligations exempt from apportionment. The USACE has no apportionments under Category B. Undelivered
orders presented in the SBR include undelivered orders-unpaid for both direct and reimbursable funds




                                                          65
For FY 2007, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category
A in the Statement of Budgetary Resources (SBR) includes: $7.3 billion for direct obligations; $37.9 million for direct
obligations exempt from apportionment; and $8.4 billion for reimbursable obligations. The USACE did not report
any reimbursable obligations exempt from apportionment. The USACE has no apportionments under Category B.
Undelivered orders presented in the SBR include undelivered orders-unpaid for both direct and reimbursable funds

Intraentity transactions have not been eliminated because the SBR is presented as a combined statement.

Permanent Indefinite Appropriations. The USACE receives receipts from hydraulic mining in California; leases of land
acquired for flood control, navigation, and allied purposes; and licenses under the Federal Power Act for improvements of
navigable water including maintenance and operation of dams. These funds are available for expenditure.

There are no legal arrangements that affect the use of unobligated balances of budget authority.

There are differences between amounts reported on the SBR and the SF133, Report on Budget Execution (SF133) for FY
2008 and FY 2007. Treasury account symbol 96X6094 (Advances from the District of Columbia) is not included in the
SF133. This money is not from appropriated funds and is not included in the Office of Management and Budget’s data for
budget formulation. The USACE does include this appropriation in the SBR.

The President’s Budget with actual figures for FY 2008 has not yet been published. The FY 2010 President’s Budget will
include actual figures for FY 2008 reporting. The FY 2010 President’s Budget can be found at: http://www.whitehouse.gov/omb,
early in FY 2009. The following chart is a reconciliation of the FY 2009 President’s Budget actual figures for FY 2007 to FY
2007 Statement of Budgetary Resources as required by OMB Circular A-136.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   66
                                            Department of Defense
                                   U.S. Army Corps of Engineers - Civil Works
        Reconciliation of 2007 Year End Statement of Budgetary Resources to 2009 President’s Budget
                                                     (Amounts in millions)


                         Budgetary    Obligations   Offsetting
                         Resources     Incurred     Receipts      Net Outlays
                         Line 23.90   Line 23.95    Line 02.99    Line 90.00          Explanation for reconciling differences

SBR                       25,620       15,718         522           3,917
Reconciling Difference     (52)          (38)                         (1)       The SBR includes Treasury symbol 96X6094
                                                                                for advances from the District of Columbia
                                                                                for work on the Washington Aqueduct. It is
                                                                                not included in the President’s budget since
                                                                                these are not appropriated funds.
Reconciling Difference                                               522        The SBR reduces net outlays by the amount
                                                                                of distributed offsetting receipts. The
                                                                                President’s Budget Line Item 90.00 does
                                                                                not.
Reconciling Difference                                (61)                      General funds clearing accounts are
                                                                                included as distributed offsetting receipts in
                                                                                accordance with DFAS yearend guidance.
                                                                                It is not included in the President’s Budget
                                                                                amount.
Reconciling Difference     (10)                                                 Appropriation 96X3123 includes budget
                                                                                authority from the Department of Energy.
                                                                                It is not included in the President’s Budget.
Reconciling Difference                                 (4)                      The President’s Budget includes earnings
                                                                                from investments from the general fund,
                                                                                South Dakota Terrestrial Wildlife Habitat
                                                                                Restoration trust fund. The SBR did not
                                                                                include this.
Reconciling Difference                               1,537                      The Bureau of Public Debt reports interest
                                                                                on investments on the accrual basis. This




                                                                                                                                 Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
                                                                                includes interest collected, premium paid,
                                                                                and accrued interest purchased. The
                                                                                President’s Budget includes the accrual
                                                                                amount. The SBR includes only the actual
                                                                                interest and tax revenue.
Reconciling Difference                                 14                       Per Treasury’s Financial Manual, Federal
                                                                                Account Symbols and Titles, receipt
                                                                                account 96R 5125 is not a distributed
                                                                                offsetting receipt account and is not
                                                                                included in the SBR as a distributed
                                                                                offsetting receipt. It is included in the
                                                                                President’s Budget amount.
Reconciling Difference     (654)        (655)                                   2006 Audit Adjustments
Reconciling Difference      86           340                                    2007 Audit Adjustments
Total                     24,990       15,365        2,008          4,438
President’s Budget        24,992       15,368        2,011          4,440
Difference                   2            3             3              2        Due to rounding.




                                                         67
Note 18. Reconciliation of Net Cost of Operations (Proprietary) to Budget
         (formerly the Statement of Financing)

 As of September 30                                                                  2008                 2007
 (Amounts in thousands)

 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
 Obligations incurred                                                           $    20,975,901 $         15,718,293
 Less: Spending authority from offsetting collections and recoveries                (13,032,520)          (8,603,750)
 Obligations net of offsetting collections and recoveries                       $     7,943,381 $          7,114,543
 Less: Offsetting receipts                                                             (638,940)           (521,925)
 Net obligations                                                                $     7,304,441 $          6,592,618
 Other Resources:
 Donations and forfeitures of property                                                       320              11,105
 Transfers in/out without reimbursement                                                 (74,931)              23,539
 Imputed financing from costs absorbed by others                                        244,698             262,330
 Net other resources used to finance activities                                 $       170,087 $           296,974
 Total resources used to finance activities                                     $     7,474,528 $          6,889,592
 Resources Used to Finance Items Not Part of the Net Cost of Operations:
 Change in budgetary resources obligated for goods, services and benefits ordered but not yet provided:
    Undelivered Orders                                                          $    (3,325,059) $         (510,658)
    Unfilled Customer Orders                                                          1,911,344            (512,057)
 Resources that fund expenses recognized in prior periods                               (57,251)             (20,467)
 Budgetary offsetting collections and receipts that do not affect Net Cost of
 Operations                                                                             122,110             128,625
 Resources that finance the acquisition of assets                                         (9,638)            (13,473)
 Other resources or adjustments to net obligated resources that do not affect
 Net Cost of Operations:
    Less: Trust or Special Fund Receipts Related to exchange in the Entity’s
    Budget                                                                              (10,000)             (10,000)
    Other                                                                                74,612              (34,644)
 Total Resources Used to Finance Items Not Part of the Net Cost of
 Operations                                                                     $    (1,293,882) $         (972,674)
 Total Resources Used to Finance the Net Cost of Operations                     $     6,180,646 $          5,916,918




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   68
 As of September 30                                                                        2008              2007
 (Amounts in thousands)

 Components of the Net Cost of Operations That Will Not Require or Generate Resources in the Current
 Period:
 Components Requiring or Generating Resources in Future Period:
 Increase in environmental and disposal liability                                     $      331,475    $           14,069
 Increase in exchange revenue receivable from the public                                     763,926                (6,059)
 Other                                                                                         2,946                38,498
 Total components of Net Cost of Operations that will Require or Generate
 Resources in future periods                                                          $    1,098,347    $           46,508
 Components not Requiring or Generating Resources:
 Depreciation and amortization                                                        $      620,612    $          506,102
 Revaluation of assets or liabilities                                                        220,637           (211,465)
 Other
   Cost of Goods Sold                                                                          9,427                 2,025
   Operating Material and Supplies Used                                                           142                  254
   Other                                                                                    (809,646)        (1,090,483)
 Total Components of Net Cost of Operations that will not Require or
 Generate Resources                                                                   $       41,172    $      (793,567)
 Total components of Net Cost of Operations That Will Not Require or
 Generate Resources in the Current Period                                             $    1,139,519    $      (747,059)
 Net Cost of Operations                                                               $    7,320,165    $     5,169,859

Other Information




                                                                                                                              Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
The following note schedule lines are presented as combined instead of consolidated due to intraagency budgetary
transactions not being eliminated:

     n Obligations Incurred
     n Spending Authority from Offsetting Collections and Recoveries
     n Obligations Net of Offsetting Collections and Recoveries
     n Offsetting Receipts
     n Net Obligations
     n Undelivered Orders
     n Unfilled Customer Orders

Composition of Other Resources – Other, and Other Resources or Adjustments to Net Obligated Resources that do not
Affect Net Cost of Operations: Other –The FY 2008 and FY 2007 amounts include the net amount of assets transferred
between USACE and other government agencies. The FY 2007 amount also includes asset donations.

Composition of Components Requiring or Generating Resources in Future Periods: Other - The FY 2008 amounts include
the current year increase to unfunded Federal Employees’ Compensation (FECA) liability and the FECA actuarial liability.




                                                       69
The FY 2007 amount includes current year Judgment Fund Contract Disputes Act claims and current year unfunded
expense for the FECA actuarial liability.

Composition of Components not Requiring or Generating Resources: Other –The FY 2008 and FY 2007 amounts include
cost capitalization offset expense. The cost capitalization offset account provides a mechanism to offset all direct costs in the
expense accounts when those costs are subsequently capitalized into an in-process account. Current year costs associated
with nonfederal cost share projects in the contributed fund and costs related to the acquisition of operating materials and
supplies in the revolving fund are also recorded as other expenses not requiring budgetary resources. In FY 2008 costs
associated with fish mitigation studies in the general fund are also recorded as other expenses not requiring budgetary
resources.


Note 19. Earmarked Funds

                                                                                              FY 2008
 BALANCE SHEET
 As of September 30                                                       Contributed                                                 Consolidated
 (Amounts in thousands)                               Special Funds         Funds            Trust Funds       Eliminations              Total

 ASSETS
 Fund balance with Treasury                           $      11,127   $       779,578    $       113,702 $                        $       904,407
 Investments                                                                                  4,789,604                                 4,789,604
 Accounts and Interest Receivable                             1,580               148            540,733                                  542,461
 Plant, Property, and Equipment and
 Other Assets                                                 1,073            34,157            922,943                                  958,173
 Total Assets                                         $      13,780   $       813,883    $ 6,366,982 $                            $     7,194,645
 LIABILITIES and NET POSITION
 Accounts Payable and Other Liabilities
 Other Liabilities                                            1,750           768,777            116,717               (133)              887,111
 Total Liabilities                                    $       1,750   $       768,777    $       116,717 $             (133)      $       887,111
 Cumulative Results of Operations                            12,030            45,106         6,250,265          1,276,574              7,583,975
 Total Liabilities and Net Position                   $      13,780   $       813,883    $ 6,366,982 $           1,276,441        $     8,471,086
 STATEMENT OF NET COST
 Program Costs                                        $      22,090   $       285,677    $        92,294 $         (43,181)       $       356,878
 Less Earned Revenue                                                          238,345                      0              88              238,433
 Net Program Costs                                    $      22,090   $       524,022    $        92,294 $         (43,093)       $       595,311
 Net Cost of Operations                               $      22,090   $       524,022    $        92,294 $         (43,093)       $       595,311
 STATEMENT OF CHANGES IN NET
 POSITION
 Net Position Beginning of the Period                 $      10,389   $       572,875    $ 5,727,337 $                        0   $     6,310,601
 Net Cost of Operations                                      22,090           524,022             92,294           (43,095)               595,311
 Budgetary Financing Sources                                 23,731               147         1,035,407          1,233,479              2,292,764
 Other Financing Sources                                                       (3,894)         (420,185)                      0          (424,079)
 Change in Net Position                               $       1,641   $     (527,769)    $       522,928 $       1,276,574        $     1,273,374
 Net Position End of Period                           $      12,030   $        45,106    $ 6,250,265 $           1,276,574        $     7,583,975




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information          70
                                                                                         FY 2007
 BALANCE SHEET
 As of September 30                                               Contributed                                                    Consolidated
 (Amounts in thousands)                      Special Funds          Funds               Trust Funds           Eliminations          Total

 ASSETS
 Fund balance with Treasury                  $      9,172     $       562,877       $        89,257       $                  0   $    661,306
 Investments                                            0                       0         4,038,353                          0       4,038,353
 Accounts and Interest Receivable                   1,858                       0           476,546                          0        478,404
 Plant, Property, and Equipment and
 Other Assets                                       1,041              28,769             1,214,609                          0       1,244,419
 Total Assets                                $    12,071      $       591,646       $     5,818,765       $                  0   $ 6,422,482
 LIABILITIES and NET POSITION
 Accounts Payable and Other Liabilities             1,682              18,771                91,428                   (267)           111,614
 Total Liabilities                           $      1,682     $        18,771       $        91,428       $           (267)      $    111,614
 Cumulative Results of Operations                 10,389              572,875             5,727,337              (181,049)           6,129,552
 Total Liabilities and Net Position          $    12,071      $       591,646       $     5,818,765       $      (181,316)       $ 6,241,166
 STATEMENT OF NET COST
 Program Costs                               $    13,543      $       320,184       $       992,618       $       (32,111)       $ 1,294,234
 Less Earned Revenue                                    0           (393,361)                         0                  57           393,304
 Net Program Costs                           $    13,543      $       (73,177)      $       992,618       $       (32,054)       $    900,930
 Net Cost of Operations                      $    13,543      $       (73,177)      $       992,618       $       (32,054)       $    900,930
 STATEMENT OF CHANGES IN NET
 POSITION
 Net Position Beginning of the Period        $      7,176     $       503,202       $     4,870,287       $                  0   $ 5,380,665
 Net Cost of Operations                           13,543              (73,177)              992,618               (32,054)            900,930




                                                                                                                                                 Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
 Budgetary Financing Sources                      16,756                1,470             1,588,549              (213,103)           1,393,672
 Other Financing Sources                                0              (4,974)              261,119                          0        256,145
 Change in Net Position                      $      3,213     $        69,673       $       857,050       $      (181,049)       $    748,887
 Net Position End of Period                  $    10,389      $       572,875       $     5,727,337       $      (181,049)       $ 6,129,552

Other Disclosures

All intragovernmental activity within USACE between earmarked and nonearmarked funds has been eliminated from the
consolidated total column, which causes assets to not equal liabilities and net position.

There has been no change in legislation during or subsequent to the reporting periods and before the issuance of the
financial statements that significantly changes the purpose of these funds or that redirects a material portion of the
accumulated balances.

The USACE has the following Earmarked Funds as of September 30, 2008 and 2007:

Special Funds

Special Recreation Use Fees,Title 16 United States Code (USC) 4601-6a, granted USACE the authority to charge and
collect fair and equitable Special Recreation Use Fees at recreation facilities and campgrounds located at lakes or reservoirs




                                                             71
under the jurisdiction of USACE. Types of allowable fees include daily use fees, admission fees, recreational fees, annual
pass fees, and other permit type fees. The revenue is received from the public and is an inflow of resources to the
government. The purpose of the fund is to maintain and operate the recreation and camping facilities.

Hydraulic Mining in California, Debris,Title 33 USC 683, states that those operating hydraulic mines through which debris
flows in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission shall
pay a tax as determined by the Federal Energy Regulatory Commission (FERC). The tax is paid annually on a date fixed by
FERC. Taxes imposed under this code are collected and then expended under the supervision of USACE and the direction
of the Department of the Army. The revenue is received from the public and is an inflow of resources to the government.
The purpose of the fund is for repayment of funds advanced by the Federal Government or other agencies for construction,
restraining works, settling reservoirs, and maintenance.

Payments to States, Flood Control Act of 1954,Title 33 USC 701c-3, established that 75% of all funds received and
deposited from the leasing of lands acquired by the U.S. for flood control, navigation and allied purposes, including
the development of hydroelectric power, shall be returned to the state in which the property is located. The USACE
collects lease receipts into a receipt account. The revenue is received from the public and is an inflow of resources to the
government. Funds are appropriated in the amount of 75% of the receipts in the following fiscal year and disbursed to the
states. The funds may be expended by the states for the benefit of public schools and public roads of the county, or counties,
in which such property is situated, or for defraying any of the expense of county government.

Maintenance and Operation of Dams and Other Improvements of NavigableWaters,Title 16 USC 803(f), 810, states that
whenever a reservoir or other improvement is constructed by the U.S., the Federal Power Commission, now known as
FERC, shall assess charges against any licensee directly benefited, and any amount so assessed shall be paid into the U.S.
Treasury. The title further states that all charges arising from other licenses, except those charges established by FERC
for purpose of administrative reimbursement, shall be paid to the U.S.Treasury from which specific allocations will be
made. From the specific allocations, 50% of charges from all other licenses is reserved and appropriated as a special fund
in the U.S.Treasury. This special fund is to be expended under the direction of the Secretary of the Army (Secretary) for
the maintenance and operation of dams and other navigation structures that are owned by the U.S. or for construction,
maintenance, or operation of headwater or other improvements of U.S. navigable waters. The revenue is received from the
public and is an inflow of resources to the government.

Fund for Nonfederal Use of Disposal Facilities (for dredged material) was established byTitle 33 USC 2326a. This title
provides that the Secretary may permit the use of any dredged material disposal facility under the jurisdiction of, or
managed by, the Secretary by a nonfederal interest if the Secretary determines that such use will not reduce the availability
of the facility for project purposes. The Secretary may impose fees to recover capital, operation and maintenance costs
associated with such use. Any monies received through collection of fees under this law shall be available to the Secretary,
and shall be used by the Secretary, for the operation and maintenance of the disposal facility from which the fees were
collected. The revenue is received from the public and is an inflow of resources to the government.

Special funds utilize both receipt and expenditure accounts in accounting for and reporting the fund.

Contributed Funds

Rivers and Harbors Contributed and Advance Funds, authorized by Title 33 USC 701h, 702f, and 703, establishes funding
to construct, improve, and maintain levees, water outlets, flood control, debris removal, rectification and enlargement
of river channels, etc., in the course of flood control and river/harbor maintenance. Whenever any state or political
subdivision thereof shall offer to advance funds for a flood control project duly adopted and authorized by law, the Secretary
may in his discretion, receive such funds and expend the same in the immediate prosecution of such work. Advances are
from the public and are inflows of resources to the government. This fund utilizes both receipt and expenditure accounts in
accounting for and reporting the fund.



Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   72
Trust Funds

South DakotaTerrestrialWildlife Habitat RestorationTrust Fund was established by Public Law 105-277, Sec. 603. Yearly
transfers are made from the general fund of the U.S.Treasury to the trust fund for investment purposes. Investment activity
is managed by the U.S.Treasury, Bureau of Public Debt (BPD). When the fund reaches the aggregate amount of $108.0
million, withdrawals may be made by USACE for payment to the state of South Dakota. The state shall use the payments to
fund the annually scheduled work for wildlife habitat restoration. This fund utilizes both receipt and expenditure accounts
in accounting for and reporting the fund.

Coastal Wetlands Restoration Trust Fund is authorized by Title 16 USC 3951-3956. This title grants parallel authority
to USACE, along with the Environmental Protection Agency, and the Fish andWildlife Service to work with the state of
Louisiana to develop, review, evaluate, and approve a plan that is proposed to achieve a goal of “no net loss of wetlands”
in coastal Louisiana. The USACE is also responsible for allocating funds among the named task force members. Federal
contributions are established at 75% of project costs or 85% if the state has an approved CoastalWetlands Conservation
Plan. This fund is an expenditure account and receives funding transfers from the Sport Fish Restoration and BoatingTrust
Fund.

Inland Waterways Trust Fund (IWTF) is authorized by Title 26 USC 9506. The title made IWTF available for USACE
expenditures for navigation, construction, and rehabilitation projects on inland waterways. Collections into the trust fund
are from excise taxes on fuel used in commercial transportation on inland waterways. The revenue is received from the
public and is an inflow of resources to the government. The collections are invested and investment activity is managed by
the BPD. This fund utilizes receipt and expenditure accounts in accounting for and reporting the fund.

Harbor Maintenance Trust Fund (HMTF) was established by Title XIV of the Water Resources Development Act (the Act) of
1986, Public Law 99-662. The HMTF is authorized to recover 100% of USACE eligible operation and maintenance (O&M)
expenditures for the maintenance of commercial navigation in harbors and channels as well as 100% of the O&M cost of
St. Lawrence Seaway by the St. Lawrence Seaway Development Corporation. As provided in the Act, amounts in HMTF
shall be available for making expenditures to carry out the functions specified in the Act and for the payment of all expenses
of administration incurred by the U.S.Treasury, USACE, and the Department of Commerce. Collections are made into




                                                                                                                                 Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
the trust fund from fees assessed on port use associated with imports, imported merchandise admitted into a foreign trade
zone, passengers, and movements of cargo between domestic ports. The collections are invested and investment activity
is managed by BPD. The revenue is received from the public and is an inflow of resources to the government. This fund
utilizes receipt and expenditure accounts in accounting for and reporting the fund.




                                                         73
Note 20. Other Disclosures
The USACE has no assets under capital lease.

Operating Lease Liability - Lessee:

As of September 30, 2008, USACE has various non-cancellable operating leases mainly for office space and storage facilities
maintained by many of the USACE Districts. Many of these leases contain clauses to reflect inflation and renewal options.
The following schedule shows future General Services Administration lease payments due ($ in thousands):

                                        Fiscal Year                        Building Space
                                        2009                                          $67
                                        2010                                          $69
                                        2011                                          $71
                                        2012                                          $73
                                        2013                                          $76
                                        After 5 Years                                $414
                                        Total Future Lease Payments                  $770

Operating Lease Liability - Lessor:

The USACE also has a small volume of operating leases for mostly easements. The following schedule provides future
projected receipts ($ in thousands):

                                        Fiscal Year                         Land Rights
                                        2009                                      $13,963
                                        2010                                      $12,834
                                        2011                                      $11,236
                                        2012                                      $10,201
                                        2013                                      $ 8,669
                                        After 5 Years                             $ 7,393
                                        Total Future Lease Payments               $64,296




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   74
FY 2008 Required Supplementary Stewardship Information (RSSI)
                                            Nonfederal Physical Property 

                   Yearly Investments in Physical Property Owned by State and Local Governments

                        For the Current and Four Preceding Fiscal Years ended September 30

                                                  (Amounts in millions)


               Categories                      FY 2008          FY 2007         FY 2006          FY 2005          FY 2004
 Transferred Assets:
 1. National Defense Mission Related               $1,135           $1,028           $1,229           $1,324          $4,429
 Funded Assets:
 2. National Defense Mission Related                     $0               $0              $0               $0               $0
 Total                                             $1,135           $1,028           $1,229           $1,324          $4,429

The U.S.Army Corps of Engineers (USACE) incurs investments in Nonfederal Physical Property for the purchase,
construction, or major renovation of physical property owned by state and local governments, including major additions,
alterations, and replacements, the purchases of major equipment, and the purchases or improvement of other nonfederal
assets. In addition, USACE has the authority to enter into cost sharing agreements with nonfederal sponsors which are
governed under numerous Water Resources Development Acts started with the Act of 1992. Nonfederal Physical Property
Investments include federally-owned physical property transferred to state and local governments.

Under numerous authorities, USACE provides design, build and construction services/management for the missions of
commercial navigation, flood/storm damage reduction, hydropower, regulatory, environmental, recreation and water
supply.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
used because current Department accounting systems are unable to capture and summarize costs in accordance with the
Federal Accounting Standards requirements.




                                                                                                                                  Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
                                     Federal Mission Property, Plant and Equipment

                          Yearly Investment in Federal Mission Property, Plant and Equipment

                                       For Fiscal Year Ended September 30, 2008

                                                   (Amounts in millions)


                    (a)                          (b)              (c)              (d)              (e)              (f)
               Categories                      FY2004          FY2005           FY2006           FY2007           FY2008
 1. Bank Stabilization Projects                        $74              $59              $67              $73              $57
 Total                                                 $74              $59              $67              $73              $57

Narrative Statement:

Investments in Federal Mission Property, Plant and Equipment refer to those expenses incurred by USACE for the
protection of the riverbanks of the Mississippi River and other navigable waterways inside the continental United States.
Stabilization and protection of the riverbanks are important to the flood control and navigation plans, serving to protect
flood control features and to insure the desired alignment of the river’s navigation channel. Stabilizing the riverbanks and
channels provide an efficient navigation alignment, increase the flood-carrying capacity of the river, and or protection of the
levees system to include the tributary basin improvements for major drainage. The process by which this is accomplished
is by; cutoffs (shortening the river and reducing flood heights), revetment (controlling the river’s meandering), dikes
(directing the flow), and improvement dredging (realigning the river/channel).




                                                          75
After major floods in the years 1882, 1912, 1913 and 1927 the Flood Control Act of 1928 was signed which committed the
federal government to a definite program of flood control. This legislation authorized the Mississippi River andTributaries
Project, the nation’s first comprehensive flood control and navigation act.

Investments values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
used because current DOD systems are unable to capture and summarize costs in accordance with the Federal Accounting
Standards requirements.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   76
FY 2008 Required Supplementary Information (RSI)
                                                   Heritage Assets
                                      For Fiscal Year Ended September 30, 2008


                              (a)                                      (b)          (c)         (d)         (e)         (f)
                                                                  Measurement      As of                              As of
                Heritage Asset Categories                           Quantity      10/01/07   Additions   Deletions   9/30/08

Buildings and Structures                                              Each          353          0           0         353
Archeological Sites                                                   Each          586          0           0         586
Museum Collection Items (Objects, Not Including Fine Art)             Each           0           0           0          0
Museum Collection Items (Fine Art)                                    Each           0           0           0          0

Narrative Statement

   1.	 Dollar Amounts. No asset dollar amounts are shown.

   2.	 Relevance to the USACE Mission. On 14 February 1990, the Chief of Engineers and Commanding General
       of the U.S.Army Corps of Engineers, Lieutenant General Henry J. Hatch, issuedThe Strategic Direction to
       Environmental Engineering. General Hatch said, “…..to meet our nation’s and world’s needs, an environmental
       ethic must be an integral part of how we conduct business. . . the environmental aspects of all we do must have
       equal standing among other aspects – not simply a ‘consideration’, but part of the ‘go-nogo’ test along with
       economics and engineering.”

   3.	 Stewardship Policy. On 30 October 2003 Engineer Regulation (ER) 200-1-5, Implementation of the
       USACE Environmental Operating Principles was issued. The ER states, in part, “The Environmental Operating
       Principles and associated doctrine highlight USACE’s roles in, and responsibilities for, sustainability, preservation,
       stewardship and restoration of our Nation’s . . . resources. These principles and associated doctrine are based
       on the premise that through the restoration and maintenance of environmental health and productivity, both




                                                                                                                                 Fiscal Year 2008 United States Army Annual Civil Works Financial Statement
       economic development and social equity can be achieved.”

   4.	 Heritage Asset Categories.

       a.	 Based on the current definition provided for Monuments and Memorials, USACE does not administer any
           properties that meet the qualifying criteria.

       b.	 No additions or deletions were noted from September 30, 2007 reporting of Heritage Asset Categories.
           Heritage assets classified as Land are special land plots containing archaeological sites as listed on the National
           Register of Historic Places or formally determined eligible to be listed by the agency and the Keeper of the
           National Register. Cemeteries and Archeological Sites are archeological properties listed on or eligible for
           listing in the National Register of Historic Places. These archeological assets cover almost the entire range
           of human occupation of the Continental United States beginning with the Kennewick Man Discovery Site in
           Washington State, dating to approximately 10,000 years before present, to archeological remains of early
           European-American settlements such as Fort Independence in Georgia... The current National Register
           inventory for USACE includes 489 archeological properties determined to be eligible for listing and 97
           archeological properties listed. This total of 586 archeological properties qualifying as Heritage Assets
           reflects no change from the previous quarterly report.

       c.	 Buildings and Structures include a range of historic resources from a covered bridge in Sacramento District to
           early farming structures in Savannah District. It also includes some non-traditional structures such as a snag



                                                         77
                 boat that operated on the Mississippi River. Again, the current National Register of Historic Places Internet
                 Database was reviewed for USACE Heritage Assets in the Buildings and Structures category. There are 117
                 Buildings and Structures listed on the National Register and 236 determined eligible for listing. There are a
                 total of 353 Heritage Assets in this category and reflects no change from the prior fiscal year end report.

                                                 General Property, Plant and Equipment

                                              Real Property Deferred Maintenance Amounts

                                                       As of 30 September 2008

                                                         (Amounts in Thousands)


                                                            (a)                      (b)
                                      Property Type/Major Class
                                      1. Real Property
                                         A. Buildings
                                         B. Structures                              $1,298,871
                                      2. Total                                      $1,298,871

Narrative Statement

Deferred maintenance at CivilWorks water resources projects operated and maintained by the U.S.Army Corps of
Engineers was determined through the budget development and appropriations process whereby operations managers
identify the operation and maintenance (O&M) needs at each project in the CivilWorks inventory. O&M needs are based
on inspections of project Features, engineering analyses and historical experience.




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   78
Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   82
Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information   96
   We are interested in your feedback regarding the content of this report.

Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:


                    Department of the Army
               Office of the Deputy Assistant Secretary of the Army 

                    (Financial Management and Comptroller)

                  Office of the Financial Reporting Directorate

                        Room 3A312, 109 Army Pentagon

                           Washington, DC 20310-0109


  Additional copies of this report can be obtained by sending a written request to 

                     the e-mail or mailing address listed above.


You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                                                     The Soldier’s Creed
                                                       I am an American Soldier.

                                                I am a Warrior and a member of a team. 

                                   I serve the people of the United States and live the Army Values.


                                                       I will always place the mission first.

                                                              I will never accept defeat.

                                                                     I will never quit.

                                                        I will never leave a fallen comrade.


                                               I am disciplined, physically and mentally tough,

                                                  trained and proficient in my warrior tasks

                                                    and drills. I always maintain my arms,

                                                          my equipment and myself.


                                                    I am an expert and I am a professional.


                                                     I stand ready to deploy, engage, and

                                                   destroy the enemies of the United States

                                                          of America in close combat.


                                                       I am a guardian of freedom and the

                                                              American way of life.


                                                              I am an American Soldier.





                             United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil




Civil Works Fund
Principal Financial Statements, Notes and Supplementary Information      98
